APPENDIX

r

Appendix
la
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 19-3305
Daniel L. Miles, on own
behalf and on behalf of
others as a class,
Plain tiff-Appellant,
vs.
Kristine L. Svinicki,
successor to Stephen G.
Burns, successor to Allison
M. McFarlane, successor to
Gregory B. Jaczko,
successor to Dale E. Klein,
successor to Nils J. Diaz,
Chairman, U.S. Nuclear
Regulatory Commission,
Defendant-Appellee.

)
)
)
)

Appeal from the United
States District Court for
the Northern District of
Illinois

)
)
)
)

) No. l:18-cv-04571
)
i

) Charles R. Norgle, Sr.,
) Judge.
)
)
)
)
)
)
)

April 29, 2020
Before
DIANE P. WOOD, Chief Judge
FRANK H. EASTERBROOK, Circuit Judge
AMY J. ST. EYE, Circuit Judge
ORDER
Plaintiff-Appellant filed a petition for rehearing and rehearing en banc on April 13,
2020. No judge in regular active service has requested a vote on the petition for rehearing
en banc, and all members of the original panel have voted to deny panel rehearing. The
petition for rehearing en banc is therefore DENIED.

Appendix
2a
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
ORDER
February 28, 2020
Before
DIANE P. WOOD, Chief Judge
FRANK H. EASTERBROOK, Circuit Judge
AMY J. ST. EVE, Circuit Judge
DANIEL L. MILES, on own behalf and on behalf of others
as a class, Plaintiff- Appellant

No. 19-3305

KRISTINE L. SVINICKI, Chairwoman, Nuclear
Regulatory Commission, et al.,
Defendants - Appellees
- ~Cr

;

T?

Originating Case Information:

District Court No: l:18-cv-04571
Northern District of Illinois, Eastern Division
District Judge Charles R. Norgle___________
The following are before the court:
1.

UNITED STATES’ MOTION FOR SUMMARY AFFIRMANCE OR TO
RESET BRIEFING SCHEDULE, filed on February 19, 2020, by counsel for
the appellee.

2.

PLAINTIFF-APPELLANT’S RESPONSE TO DEFENDANTAPPELLEE’S MOTION FOR SUMMARY AFFIRMANCE OR TO
RESET BRIEFING SCHEDULE, filed on February 26, 2020, by the pro
se appellant.
This court has carefully reviewed the final order of the district court, the record on

appeal, and the motions papers. Based on this review, the court has determined that any
issues which could be raised are insubstantial and that further briefing would not be helpful

Appendix
3a
to the court’s consideration of the issues. See Taylor v. City of New Albany, 979 F.2d 87 (7th
Cir. 1992); Mather v. Village ofMundelein, 869 F.2d 356, 357 (7th Cir. 1989) (per curiam)
(court can decide case on motions papers and record where briefing would be not assist the
court and no member of the panel desires briefing or argument). “Summary disposition is
appropriate ‘when the position of one party is so clearly correct as a matter of law that no
substantial question regarding the outcome of the appeal exists.’” Williams v. Chrans, 42
F.3d 1137, 1139 (7th Cir. 1995), citing Joshua v. United States, 17 F.3d 378, 380 (Fed. Cir.
1994). The district court correctly held that Miles, as a nonlawyer, cannot represent other
parties in a lawsuit. See Miles v. Klein, 250 F. App’x 739, 741 (7th Cir. 2007). Accordingly,

IT IS ORDERED that the appellee’s motion is GRANTED, and the judgment of the
district court is summarily AFFIRMED.

*As a note from Petitioner, the United States was not a party to the case before the
District Court and the Seventh Circuit Court.

Appendix
4a
United States District Court
Northern District of Illinois
Eastern Division
Case Number: 18 C 4571

Daniel L. Miles,
Plaintiff(s),
v.

Judge CHARLES R. NORGLE

Kristine L Svinicki, et al.,
Defendant(s).
JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):
□ in favor of plaintiff(s)
and against defendant(s)
in the amount of $

,

which includes pre-judgment interest,
does not include pre-judgment interest.
Post-judgment interest accrues on that amount at the rate provided by law from the date of this
judgment. Plaintiffs) shall recover costs from defendant(s).
□ in favor of defendant^)
and against plaintiffs)
Defendant(s) shall recover costs from plaintiffs).
13 other: this case is dismissed.
This action was (check one):
□ tried by a jury with Judge presiding, and the jury has rendered a verdict.
□ tried by Judge without a jury and the above decision was reached.
□ decided by Judge on a motion.
Thomas G. Bruton, Clerk of Court
Date: 9/25/2019
s/ Eric Fulb right, Deputy Clerk

Appendix
5a
No. 19-3305
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

DANIEL L. MILES, on own behalf and on behalf of others as a class,
Plaintiff-Appellant,
v.
KRISTINE L. SVINICKI, successor to STEPHEN G.
BURNS, successor to ALLISON M. McFARLANE,
successor to GREGORY B. JACZKO, successor to
DALE E. KLEIN, successor to NILS J. DIAZ, Chairman,
U.S. Nuclear Regulatory Commission,
Defendant-Appellee.

Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division
Case No. 1:18-CV-04571
The Honorable Judge Charles R. Norgle, Sr.
PLAINTIFF-APPELLANT’S PETITION FOR
REHEARING EN BANC
Daniel L. Miles,
Plaintiff-App ellant, Class Agent
and Private Attorney General
17 North Taft Ave, Hillside, IL

V_.

Appendix
6a
Table of Contents
Table of Authorities

n

Cases.......................................................

n

Statutes:.................................................

m

Constitutional Provisions:....................

IV

Rules:......................................................

IV

Statement Required By Fed. R. APP. P. 35

1

Argument

1

A. Plaintiff-Appellant argues that the judgement and orders of the District Court
were made null and void by the Thirteenth Amendment, Fifth Amendment, and
U.S. Supreme Court’s decisions.......................................................................... 1
B. Plaintiff-Appellant argues that the three-judge panel did not have the legal
authority to overrule the execution of the Thirteenth Amendment’s ban on
involuntary servitude, nor did the three-judge panel have the legal authority to
overrule the Fifth Amendment’s ban on deprivation of Thirteenth Amendment
right to be free from involuntary servitude without due process of law.
6
Conclusion

23

Certificate of Service

25

Appendix
7a
Table of Authorities
Cases:

Page

Allen v. United States, 4 F.2d 688 (7th Cir. 1925).......................................

14, 15

Associated Indus, of N.Y. State, Inc. v. Ickes, 134 F.2d 694 (2d Cir. 1943)

2

Bowe v. Colgate-Palmolive Co., 416 F.2d 711 (7th Cir. 1969).....................

2

Callanan v. United States, 364 U.S. 587 (1961)..........................................

15

Charge to Grand Jury, (1851) 2 Curt. 630....................................................

10

Charge to Grand Jury, (1851) 2 Wall. Jr. C. C. 134....................................

10

City of Mobile v. Bolden, 446 U. S. 55 (1980)..............................................

7

City of Riverside v. Rivera, 477 U.S. 561 (1986)..........................................

3

Civil Rights Cases, 109 U.S. 3 (1883)...........................................................

7, 11

Cooper v. Aaron, 358 U.S. 1 (1958)...............................................................

9

Cramer v. United States, 325 U.S. 1 (1945)..............................,...................

10

Direct Sales Co. v. United States, 319 U.S. 703 (1943)...............................

8, 14

EEOC v. Associated Dry Goods Corp., 449 U.S. 590 (1981).......................

3

Elliott v. Lessee ofPiersol, 26 U.S. (1 Pet.) 328 (1828)................................

5

Flast v. Cohen, 392 U.S. 83 (1968)................................................................

3

Fowler v. United States, 273 F. 15 (9th Cir. 1921)......................................

14

Iannelli v. United States, 420 U.S. 770 (1975)............................................

14, 15

In re Sawyer et al., 124 U.S. 200 (1888)........................................................

5

Marbury v. Madison, 5 U.S. (2 Crunch) 137 (1803)....................................

8

Martin v. United States, 100 F.2d 490 (10th Cir. 1938)..............................

14

N.Y. Gaslight Club, Inc. v. Carey, 447 U.S. 54 (1980).................................

3

Rivera v. NIBCO, Inc., 364 F.3d 1057 (2004)..............................................

3

Screws v. United States, 325 U.S. 91 (1945)................................................

18

Scripps-Howard Radio v. Commn., 316 U.S. 4 (1942)................................

3

State v. Barbour, 278 N.C. 449 (1971)..........................................................

16

State v. Tucker, 334 S.C. 1 (1999).................................................................

16

U.S. v. Lee, 106 U.S. 196 (1882)....................................................................

9

United States v. Booker, 655 F.2d 562 (4th Cir. 1981)................................

16

Appendix
8a
United States v. Colvin, 353 F.3d 569 (7th Cir. 2003).............................

13

United States v. Consol. Packaging Corp., 575 F.2d 117 (7th Cir. 1978)

14

United States v. Fricke, D.C., 259 F. 673 (1919).......................................

12

United States v. Godinez, 998 F.2d 471 (7th Cir. 1993)...........................

16

United States v. Lechuga, 994 F.2d 346 (7th Cir. 1993)..........................

14

United States v. Lemm, 680 F.2d 1193 (8th Cir. 1982)............................

15

United States v. Richardson, 418 U.S. 166, 193 (1974)...........................

3

United States v. Robinson, 259 F. 685 (1919)...........................................

12, 13

United States v. Varelli, 407 F. 2d 735 (7th Cir. 1969)............................

14

United States v. Williams, 343 F.3d 423 (5th Cir. 2003)......... ...............

18

Statutes:
18 U.S.C. § 52................................................................................

18

18 U.S.C. §241...............................................................................

13

18 U.S.C. § 242...............................................................................

17, 18

18 U.S.C. § 1512.............................................................................

13

18 U.S.C. § 1583.............................................................................

15, 16

18 U.S.C. § 1584.............................................................................

19

18 U.S.C. § 1589.............................................................................

19

18 U.S.C. § 1594.................................. ...........................................

19

18 U.S.C. § 2381.............................................................................

13

18 U.S.C. § 2382.............................................................................

11

28 U.S.C. §2201.............................................................................

20

28 U.S.C. § 2202.............................................................................

20

42 U.S.C. § 1988(b)........................................................................

3

42 U.S.C. § 2000e-5(k)....................................................................

3

Title VII of the Civil Rights Act of 1964...................................................

2, 3, 12

Constitutional Provisions:
U.S. Const. Article III, § 3..........................................................................

10

U.S. Const. Amend. V, cl. 4........................................................................

passim

U.S. Const. Article VI, cl. 2........................................................................

9

Appendix
9a
U.S. Const. Article VIII, § 1................

passim

Rules:
Federal Rules of Civil Procedure:
Rule 23(g)...................................

2, 4, 20

Federal Rules of Appellate Procedure:
Rule 35(b)...................................

1

Appendix
10a
Statement Required By Fed. R. APP. P. 35
Pursuant to Federal Rule of Appellate Procedure 35(b), Plaintiff-Appellant Daniel L.
Miles files this Petition for Rehearing En Banc of the three-judge panel’s February 28, 2020
Decision in this case, which should be granted for the following reasons:
First, the three-judge panel’s decision affirmed the District Court’s judgement that
had been made null and void by the Thirteenth Amendment, Fifth Amendment, and U.S.
Supreme Court’s decisions. The Thirteenth Amendment and Fifth Amendment refer to the
Thirteenth and Fifth Amendments of the United States Constitution.
Second, the three-judge panel’s decision unlawfully overruled the execution of the
Thirteenth Amendment’s ban on involuntary servitude and unlawfully overruled the Fifth
Amendment’s ban on deprivation of Thirteenth Amendment right to be free from
involuntary servitude without due process of law. The Thirteenth Amendment and Fifth
Amendment refer to the Thirteenth and Fifth Amendments of the United States
Constitution.
Argument
A. Plaintiff-Appellant argues that the three-judge panel affirmed the
District Court’s judgement that had been made null and void by the
Thirteenth Amendment, Fifth Amendment, and U.S. Supreme Court’s
decisions.
First and foremost, none of the cases cited by Judge Charles R. Norgle (hereinafter
“Judge Norgle”) in his orders entered on August 27, 2018 and June 17, 2019, involved a
private attorney general plaintiff seeking class certification and an appointment of interim
or class counsel pursuant to Fed. R. Civ. P. 23(g). Judge Norgle knew that to be true, and
Plaintiff-Appellant knew that to be true, which explained the reason why PlaintiffAppellant continued to seek class certification as a private attorney general plaintiff and
not as a pro se plaintiff as falsely asserted by Judge Norgle in said orders. The orders
contained distorted facts. Plaintiff-Appellant was aware that, based on 28 U.S.C. § 1654, a
pro se plaintiff was not allowed to act on behalf of a class.

Appendix
11a
In the orders entered on August 27, 2018 and June 17, 2019, etc., Judge Norgle
deliberately omitted to state or indicate that Plaintiff-Appellant brought the class action
claim as an enforcement action as a private attorney general plaintiff seeking class
certification and an appointment of interim or class counsel (or class attorney other than
Plaintiff-Appellant) pursuant to Fed. R. Civ. P. 23(g). See Plaintiff-Appellant’s original
complaint filed July 2, 2018, and Plaintiff-Appellant’s amended complaint filed October 1,
2018. Such omission by Judge Norgle made said orders deceptive.
In Bowe v. Colgate-Palmolive Co., 416 F.2d 711 (7th Cir. 1969), the court stated that
“in an action brought under Title VII [of the Civil Rights Act of 1964], the charging party
and suing plaintiff acts as ‘a private attorney general’ who takes on the mantel of the
sovereign. When ... the alleged discrimination has been practiced on the plaintiff because
he ... is a member of a class which is allegedly discriminated against, the trial court bears
a special responsibility in the ‘public interest’ to resolve the dispute by determining the facts
regardless of the position of the individual plaintiff.” Bowe, 416 F.2d at 715 (7th Cir. 1969)
(emphasis added). The Bowe court further stated that “[a] suit for violation of Title VII is
necessarily a class action as the evil sought to be ended is discrimination ...” and that such
a suit “is indistinguishable ... from actions under Title II relating to discrimination in public
accommodations” the purpose of which is “vindication of the public interest.” Bowe, 416 F.2d
at 719. See Associated Indus, of N.Y. State, Inc. v. Ickes, 134 F.2d 694, 704 (2d Cir. 1943)
(Judge Frank wrote that “instead of designating the Attorney General, or some other public
officer, to bring an action, Congress can constitutionally enact a statute conferring on any
non-official persons, or on a designated group of non-official persons, authority to bring a
suit ... even if the sole purpose is to vindicate the public interest. Such persons, so
authorized, are, so to speak, Private Attorney Generals.”).
Examples of federal statutes which authorize individuals to bring claims under the
provisions as “private attorneys-general” include: 42 U.S.C. § 2000e-5(k) (Title VII of the
Civil Rights Act of 1964) and 42 U.S.C. § 1988(b) (Civil Rights Attorneys' Fees Award Act of
1976), etc. See Flast v. Cohen, 392 U.S. 83, 120 (1968) (Harlan, J., dissenting) (noting that
“[t]his and other federal courts have repeatedly held that individual litigants, acting as

Appendix
12a
private attorneys-general, may have standing as ‘representatives of the public interest”’
(quoting Scripps-Howard Radio v. Commn., 316 U.S. 4, 14 (1942)); see also United States v.
Richardson, 418 U.S. 166, 193 (1974) (“The Court has confirmed the power of Congress to
open the federal courts to representatives of the public interest through specific statutory
grants of standing.”). Congress expressly recognized that a plaintiff who obtains relief in a
civil rights lawsuit “does so not for himself alone, but also as a ‘private attorney general,’
vindicating a policy that Congress considered of the highest importance.” City of Riverside
v. Rivera, 477 U.S. 561, 575 (1986).
In this case, Plaintiff-Appellant is authorized by the United States Congress to act as
a private attorney general for the enforcement of Title VII of the Civil Rights Act of 1964,
as amended. Furthermore, the United States Supreme Court has recognized that the United
States Congress intended to empower individuals to act as private attorneys general in
enforcing the provisions of Title VII. See Rivera v. NIBCO, Inc., 364 F.3d 1057, 1065 (2004);
N. Y. Gaslight Club, Inc. v. Carey, 447 U.S. 54, 63 (1980) (finding that “Congress has cast
the Title VII plaintiff in the role of ‘a private attorney general,’ vindicating ‘a policy of the
highest priority’”); see also EEOC v. Associated Dry Goods Corp., 449 U.S. 590, 602 (1981)
(noting that “Congress considered the charging party a ‘private attorney general,’ whose
role in enforcing the ban on discrimination is parallel to that of the Commission itself’).
Indeed, the U.S. Equal Employment Opportunity Commission (EEOC) acts “to vindicate the
public interest in the eradication of employment discrimination.”
Plaintiff-Appellant, as a private attorney general, had no doubt that the class
allegations set forth in the first cause of action (Count 1) of Plaintiff-Appellant’s amended
complaint filed October 1, [2018], were factual and meritorious, and that the requirements
of Rule 23(a) and (b) of the Federal Rules of Civil Procedure were satisfied and thus
warranted an appointment of interim or class counsel (or class attorney other than PlaintiffAppellant) pursuant to Fed. R. Civ. P. 23(g).
Plaintiff-Appellant demonstrated in the written responses and motions filed in the
District Court that the first section of the Thirteenth Amendment to the United States
Constitution nullified Judge Norgle’s orders entered on August 27, 2018, April 25, 2019, and

Appendix
13a
June 17, 2019, for having the effect of upholding Defendant-Appellee’s ongoing
discriminatory hiring and promotion policies (or customs having the force of law) inflicting
involuntary servitude. Likewise, the first section of the Thirteenth Amendment to the
United States Constitution nullified Judge Norgle’s final judgement entered on September
25, 2019, for having the effect of upholding Defendant-Appellee’s ongoing discriminatory
hiring and promotion policies (or customs having the force of law) inflicting involuntary
servitude on members of the Black male class. In addition, Plaintiff-Appellant believed that
Judge Norgle’s judgment was procured in violation of Thirteenth Amendment right to be
free from involuntary servitude and Fifth Amendment right not to be deprived of Thirteenth
Amendment right to be free from involuntary servitude without due process of law. Such
violation constituted a jurisdictional defect and rendered Judge Norgle’s judgment null and
void. In re Sawyer et al., 124 U.S. 200, 220 (1888), Justice Gray quoted from Elliott v. Lessee
ofPiersol, 26 U.S. (1 Pet.) 328 (1828), the following:
“Where a court has jurisdiction, it has a right to decide any question which occurs in
the cause, and whether its decision be correct or otherwise, its judgments, until
reversed, are regarded as binding in every other court. But if it act without authority,
its judgments and orders are regarded as nullities. They are not voidable, but simply
void, and form no bar to a remedy sought in opposition to them, even prior to a
reversal.”
Elliott v. Lessee of Piersol, 26 U.S. at 329. “[A]ll its proceedings in the exercise of the
jurisdiction which it assumed are null and void.” In re Sawyer et al., 124 U.S. at 221.
B. Plaintiff-Appellant argues that the three-judge panel did not have the
legal authority to overrule the execution of the Thirteenth
Amendment’s ban on involuntary servitude, nor did the three-judge
panel have the legal authority to overrule the Fifth Amendment’s ban
on deprivation of Thirteenth Amendment right to be free from
involuntary servitude without due process of law.
On December 31, 2019, Plain tiff-Appellant timely filed a brief in the office of the Clerk
of the Court of Appeals for the Seventh Circuit and argued that:
1) the first section of the Thirteenth Amendment to the United States Constitution,
by its own unaided force and effect, nullified Judge Norgle’s arbitrary dismissal of

Appendix
14a
the case, and his arbitrary denial of class certification and dismissal of class action
complaint, for having the effect of upholding Defendant’s ongoing discriminatory
hiring and promotion policies (or customs having the force of law) inflicting
involuntary servitude on members of the Black male class, including PlaintiffAppellant as a member;
2) Defendant’s ongoing discriminatory hiring and promotion policies (or customs
having the force of law) inflicting involuntary servitude on members of the Black
male class, including Plaintiff-Appellant as a member, have deprived and continue
to deprive said class members of their Thirteenth Amendment right to be free from
involuntary servitude without due process of law under the Due Process Clause of
the Fifth Amendment to the United States Constitution; and
3) the requirements of Rule 23(a) and (b) of the Federal Rules of Civil Procedure are
satisfied as alleged in Count 1 of Plaintiff-Appellant’s amended complaint filed
October 1, 2018.
On January 27, 2020, Defendant-Appellee filed a motion for extension of time to file
brief in the Court of Appeals for the Seventh Circuit. In said motion, Defendant-Appellee
requested a five-week extension of time, from January 30, 2020 to March 5, 2020.
In an order dated January 27, 2020, the Seventh Circuit Court of Appeals granted
Defendant-Appellee’s motion for extension of time to file brief. Defendant-Appellee’s brief
was due March 5, 2020, and Plaintiff-Appellant’s reply brief was due March 26, 2020.
On February 19, 2020, Defendant-Appellee filed a motion for summary affirmance or
[to] reset briefing schedule.
In an order dated February 28, 2020, a three-judge panel of the Seventh Circuit Court
of Appeals granted Defendant-Appellee’s motion for summary affirmance and affirmed the
judgement of the District Court.
Plaintiff-Appellant believed that Defendant-Appellee’s motion for summary
affirmance or [to] reset briefing schedule was nothing more than a motion for help, aid, or
support. In other words, Defendant-Appellee’s motion for summary affirmance or [to] reset

Appendix
15a
briefing schedule was nothing more than an invitation for a three-judge panel to cooperate
with Defendant-Appellee. Based on their decision rendered on February 28, 2020, it was
obvious that the three-judge panel accepted said invitation. The three-judge panel consisted
of Chief Judge Diane P. Wood, Judge Frank H. Easterbrook, and Judge Amy J. St. Eve.
Plaintiff-Appellant has demonstrated in the foregoing paragraphs regarding the
District Court that the first section of the Thirteenth Amendment to the United States
Constitution nullified Judge Norgle’s judgement for having the effect of upholding
Defendant-Appellee’s ongoing discriminatory hiring and promotion policies (or customs
having the force of law) inflicting involuntary servitude on members of the Black male class,
including Plaintiff-Appellant as a member. As Plaintiff-Appellant has repeatedly stated in
written responses, motions, and brief filed in the District Court and this Court, the first
section of the Thirteenth Amendment “is self-executing” and nullifies immediately anything
which is contrary to its mandate or directive. Civil Rights Cases, 109 U.S. 3, 20 (1883).
Plaintiff-Appellant has also demonstrated in the foregoing paragraphs regarding the
District Court that Judge Norgle’s judgment was procured in violation of Thirteenth
Amendment right to be free from involuntary servitude and Fifth Amendment right not to
be deprived of Thirteenth Amendment right to be free from involuntary servitude without
due process of law. Such violation constituted a jurisdictional defect and rendered Judge
Norgle’s judgment null and void. As the Supreme Court stated in City of Mobile v. Bolden,
446 U. S. 55, 76 (1980): “It is of course true that a law that impinges upon a fundamental
right explicitly or implicitly secured by the Constitution is presumptively unconstitutional.”
See Plaintiff-Appellant’s brief filed December 31, 2019, regarding the Thirteenth and Fifth
Amendments of United States Constitution.
As indicated in the order dated February 28, 2020, Chief Judge Diane P. Wood, Judge
Frank H. Easterbrook, and Judge Amy J. St. Eve’s decision “affirmed” the judgement of the
District Court. Such judgment had been made null and void by the Thirteenth Amendment,
Fifth Amendment, and U.S. Supreme Court’s decisions. In addition, the word “affirm”
means “to ratify or confirm a former law or judgment.” Black’s Law Dictionary, 2nd Edition,
1910, p. 47. Without doubt, the decision of Chief Judge Diane P. Wood, Judge Frank H.

Appendix
16a
Easterbrook, and Judge Amy J. St. Eve sent a clear message to Defendant-Appellee that
Defendant-Appellee’s ongoing discriminatory hiring and promotion policies (or customs
having the force of law) inflicting involuntary servitude on members of the Black [male]
class are ratified and confirmed.
The first section of the Thirteenth Amendment to the United States Constitution
nullified Chief Judge Diane P. Wood, Judge Frank H. Easterbrook, and Judge Amy J. St.
Eve’s decision for having the effect of upholding Defendant-Appellee’s ongoing
discriminatory hiring and promotion policies (or customs having the force of law) inflicting
involuntary servitude on members of the Black male class.
“A law repugnant to the Constitution is void.” Marbury v. Madison, 5 U.S. (2 Cranch)
137, 180 (1803).
As similarly asserted in paragraph 20 of Plaintiff-Appellant’s amended complaint
filed October 1, 2018, the term Defendant-Appellee identified in the above caption refers to
a combination of persons united (or joined) as one in their official and individual capacity.
Each member becomes or acts as the agent of every other member. “[T]he agreement was a
tacit understanding, created by a long course of conduct and executed in the same way. Not
the form or manner in which the understanding is made, but the fact of its existence and
the further one of making it effective by overt conduct are the crucial matters.” Direct Sales
Co. v. United States, 319 U.S. 703, 714 (1943) (emphasizing “prolonged cooperation”). The
act of one partner may be the act of all. See United States v. Dalzotto, 603 F.2d 642, 644 (7th
Cir. 1979) (the agreement may be shown by “concert of action, all the parties working
together understandingly with a single design for the accomplishment of a common
purpose.”). Plaintiff-Appellant believes that Chief Judge Diane P. Wood, Judge Frank H.
Easterbrook, and Judge Amy J. St. Eve have become members of Defendant-Appellee.
Plaintiff-Appellant believes that, in regard to their decision rendered on February 28,
2020, Chief Judge Diane P. Wood, Judge Frank H. Easterbrook, and Judge Amy J. St. Eve
did not have the legal authority to overrule the execution of the Thirteenth Amendment’s
ban on involuntary servitude, nor did the Judges have the legal authority to overrule the
Fifth Amendment’s ban on deprivation of Thirteenth Amendment right to be free from

Appendix
17a
involuntary servitude without due process of law. Indeed, Article VT of the Constitution
makes the Constitution the "supreme Law of the Land." See the Supremacy Clause, Article
VI, Clause 2 of the United States Constitution.
“Any judge [or officer of the government] who does not comply with his [or her] oath
to the Constitution of the United States wars against that Constitution and engages in acts
in violation of the supreme law of the land. The judge [or officer] is engaged in acts of
treason.” Cooper v. Aaron, 358 U.S. 1, 78 S. Ct. 1401 (1958).
“No man [or woman] in this country is so high that he [or she] is above the law. No
officer of the law may set that law at defiance with impunity. All the officers of the
government, from the highest to the lowest, are creatures of the law and are bound
to obey it. It is the only supreme power in our system of government, and every man
[or woman] who, by accepting office participates in its functions, is only the more
strongly bound to submit to that supremacy, and to observe the limitations it imposes
on the exercise of the authority which it gives.” U.S. v. Lee, 106 U.S. 196, 220 (1882).
Plaintiff-Appellant believes that this country is the United States of America, and
not the Confederate States of America as one group of people clandestinely thinks it is.
Based on its background history, the Confederate States of America believed in the right of
one group of people to enslave another and to hold another in involuntary servitude.
Treason against the United States
“Treason against the United States, shall consist only in levying War against them,
or in adhering to their Enemies, giving them Aid and Comfort. No Person shall be convicted
of Treason unless on the Testimony of two Witnesses to the same overt Act, or on Confession
in open Court.” Article III, § 3 of the United States Constitution. See Cramer u. United
States, 325 U.S. 1, 53-54 (1945).
1. “The expression levying war’... embraces not merely that act of formal or declared
war, but any combination forcibly to prevent or oppose the execution or
enforcement of a provision of the Constitution or of a public statute, if
accompanied or followed by an act of forcible opposition in pursuance of such

Appendix
18a
combination. This in substance has been the interpretation given to these words
by the English judges, and it has been uniformly and fully recognized and adopted
in the courts of the United States." Charge to Grand Jury, (1851) 2 Wall. Jr. C. C.
134, 30 Fed. Cas. No. 18,276.
2. In Charge to Grand Jury, (1851) 2 Curt. 630, 30 Fed. Cas. No. 18,269, Mr. Justice
Curtis said: "That the words ' levying war,’ include not only the act of making war
for the purpose of entirely overturning the government, but also any combination
forcibly to oppose the execution of any public law of the United States, if
accompanied or followed by an act of forcible opposition to such law in pursuance
of such combination. The following elements, therefore, constitute this offense: (1)
A combination, or conspiracy, by which different individuals are united in one
common purpose. (2) This purpose being to prevent the execution of some public
law of the United States by force. (3) The actual use of force, by such combination,
to prevent the execution of that law.” Without doubt, the word “execution” is
synonymous with the word “enforcement.”
“Whoever, owing allegiance to the United States and having knowledge of the
commission of any treason against them, conceals and does not, as soon as may be, disclose
and make known the same to the President or to some judge of the United States, or to the
governor or to some judge or justice of a particular State, is guilty of misprision of treason
and shall be fined under this title or imprisoned not more than seven years, or both.” 18
U.S.C. § 2382.
Pursuant to 18 U.S.C. § 2382, Plaintiff-Appellant hereby imparts his belief and
knowledge of the commission of treason to Judges of the United States. The language of the
class allegations set forth in the first cause of action (Count 1) of Plaintiff-Appellant’s
amended complaint filed October 1, 2018, demonstrates Defendant-Appellee’s longstanding
and ongoing pattern of engaging in the following overt acts of treason since January 19,
1975, to present:
1) The overt act of opposing by force the execution of the Thirteenth Amendment’s
ban on involuntary servitude:

Appendix
19a
•

Thirteenth Amendment refers to the Thirteenth Amendment of the United
States Constitution. The Thirteenth Amendment’s first section bans slavery
and involuntary servitude and “is self-executing.” Civil Rights Cases, 109 U.S.
3, 20 (1883). “Slavery is [the] state of entire legal subjection of one person to
the will of another, and freedom is the total absence of such subjection from a
person.” Congressional Globe, 39th Cong., 1st Sess., p. 934 (1866). Although
implied in the definition of slavery, involuntary servitude is “the condition of
one who is compelled by force, coercion, or imprisonment, and against his will,
to labor for [or to serve] another, whether he is paid or not.” Black’s Law
Dictionary, 4th Edition, 1968, p. 961. Self-executing means, among others,
“effective immediately without the need of intervening court action.” West's
Encyclopedia of American Law, 2nd Edition (2008).

2) The overt act of opposing by force the enforcement of Title VII’s ban on
discrimination on the basis of race and sex:
•

Title VII refers to Title VII of the Civil Rights Act of 1964, as amended.
Members of the Black male class, including Plain tiff-Appellant as a member,
are authorized by the United States Congress to act as private attorneys
general for the enforcement of Title VII of the Civil Rights Act of 1964, as
amended, on behalf of the general public (or public interest) and not just the
class members, including Plaintiff-Appellant.

3) The overt act of adhering to involuntary servitude, rendering it aid and comfort
by upholding it and keeping it alive and well:
•

Under the Thirteenth Amendment to the United States Constitution, slavery
and involuntary servitude, except as a punishment for crime, are enemies of
the United States of America.

Plaintiff-Appellant believes that only one of the said overt acts by Defendant-Appellee
must be proved by two witnesses. “When an overt act is a single, continuous, composite act
made of several circumstances and passing through several stages, it is not necessary that
there be two witnesses to each circumstance in each stage; it is sufficient that two witnesses

Appendix
20a
are able to testify to the whole overt act.” Cf. United States v. Fricke, D.C., 259 F. 673, 677
(1919); United States v. Robinson, 259 F. 685, 694 (1919).
“[A] witness is only he who can “back up’ the story of the party to whom he belongs.
Treason requires two such witnesses to the overt act.” United States v. Robinson, 259 F. 685,
691 (1919). Without doubt, members of the Black male class can back up PlaintiffAppellant’s said overt acts of treason being committed by Defendant-Appellee. However, the
class members, including Plaintiff-Appellant, as witnesses are being prevented from giving
testimony in federal court, in violation of 18 U.S.C. § 1512 (witness tampering).
The federal statute on treason, 18 U.S.C. § 2381, provides in part: “Whoever, owing
allegiance to the United States, levies war against them or adheres to their enemies, giving
them aid and comfort within the United States or elsewhere, is guilty of treason ....”
Conspiracy to Oppress
18 U.S.C. § 241
§ 241 prohibits two or more people from conspiring to oppress, injure, threaten, or
intimidate any person “in the free exercise or enjoyment of any right or privilege secured to
him by the Constitution or laws of the United States ...”
The language of the class allegations set forth in the first cause of action (Count 1) of
Plaintiff-Appellant’s amended complaint filed October 1, 2018, also demonstrates members
of Defendant-Appellee conspiring to oppress members of the Black male class in the free
exercise of their Thirteenth Amendment right to be free from involuntary servitude, in
violation of 18 U.S.C. § 241. Plaintiff-Appellant is a member of such class, and said
conspiracy to oppress has been ongoing since January 19, 1975, to present.
A conspiracy under § 241 does not require proof of an overt act. The conspiracy offense
is “the agreement alone.” United States v. Colvin, 353 F.3d 569, 576 (7th Cir. 2003) (en
banc). A mere tacit understanding will suffice, and there need not be any written statement
or even a speaking of words which expressly communicates agreement. As the Supreme
Court has put it: “The agreement need not be shown to have been explicit. It can instead be
inferred from the facts and circumstances of the case.” Iannelli v. United States, 420 U.S.
770, 777 n. 10 (1975) (citing Direct Sales Co. v. United States, 319 U.S. 703, 711-713 (1943)).

Appendix
21a
A “concert of action, all the parties working together understanding^, with a single design
for the accomplishment of a common purpose” is sufficient to show a conspiracy. United
States v. Varelli, 407 F. 2d 735, 741 (7th Cir. 1969) (citing Fowler u. United States, 273 F.
15, 19 (9th Cir. 1921)).
Prolonged cooperation is “one type of evidence of an agreement that goes beyond what
is implicit in any consensual undertaking.” United States v. Lechuga, 994 F.2d 346, 350 (7th
Cir. 1993) (citing Direct Sales Co. v. United States, 319 U.S. 703, 713 (1943) (emphasizing
“prolonged cooperation”)). See United States v. Consol. Packaging Corp., 575 F.2d 117, 126
(7th Cir. 1978) (“Tacit understanding created and executed by a long course of conduct is
enough to constitute agreement even without personal communication.”).
“All of the conspirators need not be acquainted with each other. They may not have
previously associated together. One defendant may know but one other member of the
conspiracy. But if, knowing that others have combined to violate the law, a party knowingly
co-operates to further the object of the conspiracy, he becomes a party thereto.” Allen v.
United States, 4 F.2d 688 (7th Cir. 1925). See Martin v. United States, 100 F.2d 490, 496
(10th Cir. 1938) (“It is not necessary that all of the parties be personally acquainted with
each other. Neither is it requisite that one have direct contact with all others. It suffices if
with knowledge that others have combined to violate the law, one knowingly co-operates in
some affirmative manner to further the purpose of the conspiracy.”). “A co-conspirator may
become a member of a conspiracy without being in at its inception. He adopts the previous
acts of his fellow conspirators when, with knowledge of the conspiracy's existence, he
undertakes to further its design. A conspirator also need not know all of the conspirators or
be aware of all the details of the conspiracy, so long as the evidence is sufficient to show
knowing contribution to the furtherance of the conspiracy.” United States v. Lemm, 680 F.2d
1193, 1204 (8th Cir. 1982), cert, denied, 459 U.S. 1110, 103 S. Ct. 739, 74 L. Ed. 2d 960
(1983). In essence, a person becomes a party to a continuing conspiracy by knowingly
cooperating to further the object of the conspiracy. “One actor may drop out of the scene
altogether, and another take his place, without the conspiracy terminating.” Allen v. United
States, 4 F.2d 688 (7th Cir. 1925).

Appendix
22a
The specific intent to deprive members of the Black male class of their Thirteenth
Amendment right to be free from involuntary servitude can be inferred from DefendantAppellee’s action. The specific intent includes the intent to prevent members of the Black
male class from exercising their Thirteenth Amendment right to be free from involuntary
servitude.
“[Cjollective criminal agreement — partnership in crime - presents a greater
/

potential threat to the public than individual delicts. Concerted action both increases the
likelihood that the criminal object will be successfully attained and decreases the probability
that the individuals involved will depart from their path of criminality .... Combination in
crime makes more likely the commission of crimes unrelated to the original purpose for
which the group was formed. In sum, the danger which a conspiracy generates is not
confined to the substantive offense which is the immediate aim of the enterprise.” Iannelli
v. United States, 420 U.S. 770, 778 (1975) (citing Callanan v. United States, 364 U.S. 587,
593-594 (1961)).
Kidnapping into Involuntary Servitude
18 U.S.C. § 1583
§ 1583 is a federal kidnapping statute enacted to enforce the Thirteenth
Amendment’s guarantee of freedom from slavery and involuntary servitude. §1583 provides
in part: “Whoever kidnaps or carries away any other person, with the intent that such other
person be sold into involuntary servitude, or held as a slave.”
Kidnapping means the unlawful taking and carrying away of a person by force and
against his will. “It is the fact, not the distance, of forcible removal of the victim that
constitutes kidnapping.” 1 Am. Jur. 2d, Abduction and Kidnapping, § 18, p. 172.
The language of the class allegations set forth in the first cause of action (Count 1) of
Plaintiff-Appellant’s amended complaint filed October 1, 2018, also demonstrates
Defendant-Appellee kidnapping or carrying away members of the Black male class by force
and against their will from a state of freedom to a condition of involuntary servitude with
intent to hold them in involuntary service, in violation of 18 U.S.C. § 1583. PlaintiffAppellant is a member of said class, and said kidnapping into involuntary servitude has

Appendix
23a
been ongoing since January 19, 1975, to present. § 1583 also prohibits kidnapping of a
federal employee such as Plaintiff-Appellant into involuntary servitude.
As stated in United States v. Booker, 655 F.2d 562 (4th Cir. 1981), “The distance the
victims were transported is not material for a prosecution for kidnapping. See, e. g., State v.
Barbour, 278 N.C. 449, 180 S.E.2d 115, 118 (1971). Neither does the federal statute at issue
here require transportation of the victims across a state line, because it derives its authority
from the [T]hirteenth [A]mendment, which prohibits slavery and practices incident to it to
secure liberty throughout the country. The very purpose of § 1583 was to extend
constitutional protection against kidnapping for the purpose of exacting involuntary
servitude ...”
Kidnapping is a continuous offense which “commences when one is wrongfully
deprived of freedom and continues until freedom is restored.” State v. Tucker, 334 S.C. 1,
13, 512 S.E.2d 99, 105 (1999). See United States v. Godinez, 998 F.2d 471, 473 (7th Cir. 1993)
(agreeing with defendant that “a kidnapping does not end until the victim is free; ... one
kidnapping is a single crime, rather than, say, one crime per hour of detention. That
kidnapping is a continuing offense also means that the statute of limitations runs from the
release rather than the capture of the victim.”). It is clear from the language of the class
allegations set forth in the first cause of action (Count 1) of Plaintiff-Appellant’s amended
complaint filed October 1, 2018, that members of the Black male class, including PlaintiffAppellant as a member, have not been released from being kidnapped into involuntary
servitude.
Deprivation of Thirteenth Amendment Right
to be Free from Involuntary Servitude
18 U.S.C. § 242
§ 242 provides: “Whoever, under color of any law, statute, ordinance, regulation, or
custom, willfully subjects any person in any State, Territory, Commonwealth, Possession,
or District to the deprivation of any rights, privileges, or immunities secured or protected
by the Constitution or laws of the United States ....”
The language of the class allegations set forth in the first cause of action (Count 1) of
Plaintiff-Appellant’s amended complaint filed October 1, 2018, also demonstrates

Appendix
24a
Defendant-Appellee acting under the color of law or custom willfully subjecting members of
the Black male class to the deprivation of their Thirteenth Amendment right to be free from
involuntary servitude, in violation of 18 U.S.C. § 242. Plaintiff-Appellant is a member of
said class, and said willful subjection of class members to the deprivation of their Thirteenth
Amendment right has been ongoing since January 19, 1975, to present.
§ 242 requires proof of defendant's specific intent to deprive the victim(s) of a federal
right. The specific intent requirement in civil rights cases ensures that the accused is aware
that what he does is precisely that which the statute forbids. To prove defendant violated
18 U.S.C. § 242, the government must prove that defendant willfully deprived another of a
constitutional right while acting under color of law. See United States v. Williams, 343 F.3d
423, 431-432 (5th Cir. 2003), cert, denied, 124 S. Ct. 966 (2003). “Willfulness,” as defined
within the context of 18 U.S.C. § 242, requires the jury to find that the defendant acted “in
open defiance or in reckless disregard of a constitutional requirement which has been made
specific and definite.” Screws v. United States, 325 U.S. 91, 105 (1945).
As the Supreme Court stated in Screws v. United States, 325 U. S. 91, at 104, 105
(1945), a criminal case under 18 U.S.C. § 52 (now codified as 18 U.S.C. § 242):
“For the specific intent required by the Act is the intent to deprive a person of a right
which has been made specific either by the express terms of the Constitution or laws
of the United States or by decisions interpreting them .... He who defies a decision
interpreting the Constitution knows precisely what he is doing. If sane, he hardly
may be heard to say that he knew not what he did. Of course, willful conduct cannot
make definite that which is undefined. But willful violators of constitutional
requirements, which have been defined, certainly are in no position to say that they
had no adequate notice that they would be visited with punishment. When they act
willfully in the sense in which we use the word, they act in open defiance or in reckless
disregard of a constitutional requirement which has been made specific and definite.
When they are convicted for so acting, they are not punished for violating an
unknowable something.”

Appendix
25a
The specific intent to deprive members of the Black male class of their Thirteenth
Amendment right to be free from involuntary servitude can be inferred from DefendantAppellee’s action. The specific intent includes the intent to prevent members of the Black
male class from exercising their Thirteenth Amendment right to be free from involuntary
servitude.
The language of the class allegations set forth in the first cause of action (Count 1) of
Plaintiff-Appellant’s amended complaint filed October 1, 2018, also demonstrates
Defendant-Appellee violating 18 U.S.C. § 1584 (knowingly and willfully holding in
involuntary servitude), 18 U.S.C. § 1589, 18 U.S.C. § 1594(a) and/or (b), etc.
Defendant-Appellee’s potential class liability for damages along with said federal
crimes being committed by Defendant-Appellee should shed some fight on the reason why
Judge Charles Norgle dismissed the “class allegations” in his order entered on April 25,
2019.
Although members of the Black male class, including Plaintiff-Appellant as a
member, are victims of said conspiracy to oppress, deprivation of Thirteenth Amendment
right to be free from involuntary servitude, and kidnapping into involuntary servitude, etc.,
the class members do not have the legal authority as a class of private attorneys general to
prosecute Defendant-Appellee for committing these federal crimes, which are criminal
offenses against the United States of America. Only the Attorney General of the U.S.
Department of Justice is vested with the legal authority to prosecute federal crimes.
Conclusion
Plaintiff-Appellant respectfully requests that the full Court rehear this case en banc,
and in the interest of fairness and justice, Plain tiff-Appellant requests of this Court that
Chief Judge Diane P. Wood, Judge Frank H. Easterbrook, and Judge Amy J. St. Eve refrain
from participation in the decision as to whether this petition is granted or not.
Plaintiff-Appellant respectfully urges this Court (1) to reverse the three-judge
panel’s decision, (2) to reverse Judge Norgle’s arbitrary dismissal of the case, and his
arbitrary denial of class certification and dismissal of the class action complaint (Count 1),
(3) to certify the first cause of action (Count 1) of Plaintiff-Appellant’s amended complaint

Appendix
26a
as a class action for an ongoing pattern or practice of retaliatory discrimination based on
opposition to unlawful discriminatory hiring and promotion policies in violation of Title VII,
a class action for an ongoing pattern or practice of race and sex discrimination in hiring and
promotion policies in violation of Title VII, and/or a class action for declaratory and
injunctive relief under 28 U.S.C. § 2201 and 28 U.S.C. § 2202 for violation of the first section
of the Thirteenth Amendment and the Due Process Clause of Fifth Amendment of the
United States Constitution, (4) to appoint Class Counsel (or class attorney other than
Plaintiff-Appellant) pursuant to Fed. R. Civ. P 23(g) as requested in Plaintiff-Appellant’s
amended complaint, (5) to reinstate Counts 2, 3, and 4 of Plain tiff-Appellant’s amended
complaint, and (6) to assign a different District Judge to preside over the case. If feasible,
Plaintiff-Appellant requests of this Court to retain jurisdiction over this case or controversy.

Respectfully submitted,
s/ Daniel L. Miles,
Plain tiff-Appellant, Class Agent
and Private Attorney General
17 North Taft Ave.
Hillside, IL 60162
Telephone: (708) 449-0379
E-mail: dlmiles@comcast.net
Dated: April 13, 2020

Appendix
27a
No. 19-3305
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
DANIEL L. MILES, own behalf and on behalf of others as a class,
Plaintiff-Appellant,
v.
KRISTINE L. SVINICKI, successor to STEPHEN G.
BURNS, successor to ALLISON M. McFARLANE,
successor to GREGORY B. JACZKO, successor to
DALE E. KLEIN, successor to NILS J. DIAZ, Chairman,
U.S. Nuclear Regulatory Commission,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division
Case No. 1:18-CV-04571
The Honorable Judge Charles R. Norgle, Sr.

PLAINTIFF-APPELLANT’S RESPONSE TO
DEFENDANT-APPELLEE’S MOTION FOR SUMMARY AFFIRMANCE
OR TO RESET BRIEFING SCHEDULE

Appendix
28a
Plaintiff-Appellant, Daniel L. Miles, hereby responds to Defendant-Appellee’s Motion
for Summary Affirmance or to Reset Briefing Schedule, filed February 19, 2020, as follows:
1.

As stated in Plaintiff-Appellant’s brief filed December 31, 2019, “de novo” is

the standard of review for all issues presented in this appeal. Plaintiff-Appellant believes
that when a court hears a case de novo, it is deciding the issues without reference to any
legal conclusion or assumption made by the previous court to hear the case. In other words,
an appellate court hearing a case de novo may refer to the lower court’s record to determine
the facts, but will rule on the evidence and matters of law without deferring to the lower
court’s decisions or findings. Without doubt, the term “de novo” means “anew” or “from the
beginning.” Black’s Law Dictionary 435 (6th ed. 1990).
2.

Plaintiff-Appellant as an employee has been stripped of his job title as an

Information Technology Specialist, etc., but continues to remain in involuntary servitude or
service as an involuntary servant as other class members. See paragraph 5 of PlaintiffAppellant’s amended complaint filed October 1, 2018. The term "service" is defined as “the
being employed to serve another; duty or labor to be rendered by one person to another, the
former being bound to submit his will to the direction and control of the latter. The act of
serving; the labor performed or the duties required." Black’s Law Dictionary, 4th Edition, p.
1533.
3.

Plaintiff-Appellant’s individual claims of discrimination under section 501 of

the Rehabilitation Act of 1973 are not claims based on “failure to accommodate.” See
paragraphs 43 and 53 of Plaintiff-Appellant’s amended complaint filed October 1, 2018.
4.

Plaintiff-Appellant is authorized by the United States Congress to act as a

private attorney general for the enforcement of Title VII of the Civil Rights Act of 1964 (Title
VII), as amended. Furthermore, the United States Supreme Court has recognized that the
United States Congress intended to empower individuals to act as private attorneys general
in enforcing the provisions of Title VII. See Rivera v. NIBCO, Inc, 364 F.3d 1057, 1065
(2004); N.Y. Gaslight Club, Inc. v. Carey, 447 U.S. 54, 63 (1980) (finding that “Congress has
cast the Title VII plaintiff in the role of ‘a private attorney general,’ vindicating ‘a policy of
the highest priority’”); see also EEOC v. Associated Dry Goods Corp., 449 U.S. 590, 602

Appendix
29a
(1981) (noting that “Congress considered the charging party a ‘private attorney general,’
whose role in enforcing the ban on discrimination is parallel to that of the Commission
itself’). With regard to attorney fees, see 42 U.S.C. § 2000e-5(k), which is made applicable
by 42 U.S.C. § 2000e-16(d).
a. Judge Jerome Frank coined the phrase “private attorney general” in 1943, to
describe a person acting to “vindicate the public interest.” Associated Indus, v.
Ickes, 134 F.2d 694, 704 (2d Cir. 1943).
b. The private attorney general concept holds that a successful plaintiff is entitled
to recovery of his legal expenses, including attorney fees, if he has advanced
the policy inherent in public interest legislation on behalf of a significant class
of persons. See Dasher v. Housing Authority of City of Atlanta, Ga., D.C.
Ga„ 64 F.R.D. 720, 722.
c. The United States Congress codified the private attorney general principle into
law with the enactment of Civil Rights Attorney's Fees Award Act of 1976, 42
U.S.C. § 1988(b). It allows a federal court to award reasonable attorney fees to
a prevailing party in certain civil rights cases such as those brought under 42
U.S.C. § 1981, 42 U.S.C. § 1981a, 42 U.S.C.§ 1985(3), 42 U.S.C. § 1986 and
others. The Act was designed to create an enforcement mechanism for the
nation's civil rights laws without creating an enforcement bureaucracy.
d. Article 3, Section 3 of the United States Constitution spells out what is
considered treason in the United States: “Treason against the United States,
shall consist only in levying War against them, or in adhering to their Enemies,
giving them Aid and Comfort.” See 18 U.S. C. § 2381.
i.

“The expression levying war’... embraces not merely that act of formal or
declared war, but any combination forcibly to prevent or oppose the
execution or enforcement of a provision of the Constitution or of a public
statute, if accompanied or followed by an act of forcible opposition in
pursuance of such combination. This in substance has been the
interpretation given to these words by the English judges, and it has been

Appendix
30a
uniformly and fully recognized and adopted in the courts of the United
States." Charge to Grand Jury, (1851) 2 Wall. Jr. C. C. 134, 30 Fed. Cas.
No. 18,276.
ii.

In Charge to Grand Jury, (1851) 2 Curt. 630, 30 Fed. Cas. No. 18,269, Mr.
Justice Curtis said: "That the words ' levying war,' include not only the act
of making war for the purpose of entirely overturning the government, but
also any combination forcibly to oppose the execution of any public law of
the United States, if accompanied or followed by an act of forcible
opposition to such law in pursuance of such combination. The following
elements, therefore, constitute this offense: (1) A combination, or
conspiracy, by which different individuals are united in one common
purpose. (2) This purpose being to prevent the execution of some public law
of the United States by force. (3) The actual use of force, by such
combination, to prevent the execution of that law.”

5.

Unlike Title VII’s reliance on the Equal Employment Opportunity Commission

(EEOC) and private attorneys general for its enforcement, the first section of the Thirteenth
Amendment to the United States Constitution is self-executing and nullifies immediately
anything which is contrary to its mandate or directive. The term “self-executing” means,
among others, immediately effective without further action, legislation or legal steps, or
other action being needed for enforcement. From the language of the class allegations set
forth in the first cause of action (Count 1) of Plaintiff-Appellant’s amended complaint filed
October 1, 2018, it is clear that the ongoing class action complaint of race and sex
discrimination demonstrates that Defendant-Appellee’s ongoing discriminatory hiring and
promotion policies have been unconstitutional under the Thirteenth Amendment to the
United States Constitution since January 19, 1975, to present. Under Fed. R. Civ. P. 23(a),
“one or more members of a class may sue or be sued as representative parties on behalf of
all members.” In this case, an appointment of interim or class counsel (or class attorney) is
sought pursuant to Fed. R. Civ. P. 23(g).

Appendix
31a
WHEREFORE, Plaintiff-Appellant respectfully requests that this Court deny
Defendant-Appellee’s Motion for Summary Affirmance or to Reset Briefing Schedule. This
Court has already granted leave to Defendant-Appellee to file a brief by March 5, 2020. It
should not take Defendant-Appellee nearly three months to file a brief.
Dated: February 26, 2020

Plaintiff, Class Agent and
Private Attorney General,

s/ Daniel L. Miles
17 North Taft Ave
Hillside, IL 60162
(708) 466-8942
dlmiles@comcast.net

Appendix
32a
No. 19-3305
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
DANIEL L. MILES, own behalf and on behalf of others as a class,
Plaintiff-Appellant,
v.
KRISTINE L. SVINICKI, successor to STEPHEN G.
BURNS, successor to ALLISON M. McFARLANE,
successor to GREGORY B. JACZKO, successor to
DALE E. KLEIN, successor to NILS J. DIAZ, Chairman,
U.S. Nuclear Regulatory Commission,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division
Case No. 1:18-CV-04571
The Honorable Judge Charles R. Norgle, Sr.

BRIEF AND REQUIRED SHORT APPENDIX OF
PLANTIFF-APPELLANT

Daniel L. Miles,
Plaintiff-Appellant, Class Agent
and Private Attorney General
17 North Taft Ave, Hillside, IL
60162, (708) 466-8942

Appendix
33a
Table of Contents
Jurisdictional Statement

1

Statement of Issues Presented for Review

2

Statement of the Case

3

Summary of Argument

8

Argument

9

A. Standard of Review............................................................................

9

B. Plaintiff-Appellant argues that the first section of the Thirteenth
Amendment to the United States Constitution, by its own unaided force and
effect, nullified Judge Norgle’s arbitrary dismissal of the case, and his
arbitrary denial of class certification and dismissal of class action complaint,
for having the effect of upholding Defendant’s ongoing discriminatory hiring
and promotion policies (or customs having the force of law) inflicting
involuntary servitude on members of the Black male class, including
Plain tiff-Appellant as a member....................................................................... 9
C. Plain tiff-Appellant argues that Defendant’s ongoing discriminatory hiring
and promotion policies (or customs having the force of law) inflicting
involuntary servitude on members of the Black male class, including
Plaintiff-Appellant as a member, have deprived and continue to deprive said
class members of their Thirteenth Amendment right to be free from
involuntary servitude without due process of law under the Due Process
Clause of the Fifth Amendment to the United States Constitution
11
D. Plaintiff-Appellant argues that the requirements of Rule 23(a) and (b) of the
Federal Rules of Civil Procedure are satisfied as alleged in Count 1 of
Plaintiff-Appellant’s amended complaint filed October 1, 2018..................... 14
1. The District Court entered the final judgment without making any of
class determinations (numerosity, commonality, typicality, adequacy of
representation, predominance of common issues, etc.) pursuant to Fed. R.
Civ. P. 23..................................................................................................
14
2. The requirements of Rule 23(a) and (b) of the Federal Rules of Civil
Procedure have been satisfied...............................................................
Conclusion

15
22

Appendix
34a
Certificate of Compliance with Type-Volume Limitations, Typeface Requirements
and Type-Style Requirements

24

Certificate of Compliance with Circuit Rule 30(d)

24

Certificate of Service

25

Appendix
35a
Table of Authorities
Cases:

Page

Abbott v. Latshaw, 164 F.3d 141 (3d Cir. 1998)

15

Arnett v. Kennedy, 416 U.S. 134 (1974)

15

Board of Regents v. Roth, 408 U.S. 564 (1972)

15

Carey u. Piphus, 435 U.S. 247 (1978)

14

Chavez v. Martinez, 538 U.S. 760 (2003)

14

Civil Rights Cases, 109 U.S. 3 (1883)

10

Cummings v. Mclntire, 271 F.3d 341 (1st Cir. 2001)

13

Daniels v. Williams, 474 U.S. 327 (1986)

13

De La Fuente v. Stokely-Van Camp, Inc., 713 F.2d 225 (7th Cir. 1983)

19

Deposit Guaranty Nat. Bank v. Roper, 445 U.S. 326 (1980)

22

DeShaney v. Winnebago County Dept, of Social Servs., 489 U. S. 189 (1989)

13

Deveraux v. City of Chicago,! A F.3d 328 (7th Cir. 1994)

14

Duke Power Co. v. Carolina Environmental Study Group, Inc., 438 U.S. 59 (1978) 14
East Tex. Motor Freight System, Inc. v. Rodriguez, 431 U.S. 395 (1977)

19

Eisen v. Carlisle & Jacquelin, 417 U.S. 156 (1974)

16

Fuentes v. Shevin, 407 U.S. 67 (1972)

15

General Tel. Co. of Southwest v. Falcon, 457 U.S. 147 (1982)

16, 17, 20

General Tel. Co. of the Northwest v. EEOC, 446 U.S. 318 (1980)

17

General Telephone Co. v. Falcon, 457 U.S. 147 (1982)

16

Goss v. Lopez, 419 U.S. 565 (1975)

13

Hansberry v. Lee, 311 U.S. 32 (1940)

18

Appendix
36a
Harley v. City of Jersey City, No. 16-5135, 2017 WL 2779466 (D.N.J. June 27, 2017)13
Hodges v. United States, 203 U.S. 1 (1906)

9

Hurtado v. California, 110 U.S. 516 (1884)

13

Jefferson v. Ingersoll International, Inc., 195 F.3d 894 (7th Cir. 1999)

22

Johns v. DeLeonardis, 145 F.R.D. 480 (N.D. Ill. 1992)

18

Jones v. Alfred H. Mayer Co., 392 U.S. 409 (1968)
Keele v. Wexler, 149 F.3d 589 (7th Cir. 1998)

9
20

Lemon v. International Union of Operating Engineers, Local No. 139, 216 F.3d 577 (7th
Cir. 2000)

22

Marshall v Jerrico Inc., 446 US 238 (1980)

7

Matthews v. Eldridge, 424 U.S. 319 (1976)

13

Meiresonne v. Marriot Corp., 124 F.R.D. 619 (N.D. IR. 1989)

18

Meyer v. Nebraska, 262 U.S. 390 (1923)

14

Miller v. Mackey International, 452 F.2d 424 (CA5 1971)

16

Mullane v. Central Hanover Tr. Co., 339 U.S. 306 (1949)

16

Murray v. Land & Imp. Co., 59 U.S. 272 (1856)

12

Phillips Petroleum Co. v. Shutts, 472 U.S. 797 (1985)

21

Powell v. McCormack, 395 U.S. 486 (1969)

14

Pugel v. Bd. ofTr. of Univ. of III., 378 F.3d 659 (7th Cir. 2004)

15

Retired Chicago Police Ass’n v. City of Chicago, 7 F.3d 584 (7th Cir. 1993)

17

Robertson v. Baldwin, 165 U.S. 275 (1897)

15

Rosario v. Livaditis, 963 F.2d 1013 (7th Cir. 1992)
Seegmiller v. Laverkin City, 528 F.3d 762 (10th Cir. 2008)

18, 19
14

Appendix
37a
Sosna u. Iowa, 419 U.S. 393 (1975)

19

Susman v. Lincoln American Corp., 561 F.2d 86 (7th Cir. 1977)

19

Ulman v. Mayor, etc. of Baltimore, 72 Md 587, 20 A 141 (1890)

13

United States v. Cruikshank, 25 F. Cas. 707 (1 Woods, 308) (C.C.D. La. 1874) (No. 14,897)
9
United States v. Kozminski, 487 U.S. 931 (1988)

14

United States v. Masaaki Kuwabara, 56 F. Supp. 716 (N.D. Cal. 1944)

13

Valentino v. Howlett, 528 F.2d 975 (7th Cir. 1976)

17

Vergara v. Hampton, 581 F.2d 1281 (7th Cir. 1978)

17

Wagner v. Nutrasweet Company, 95 F.2d 527 (7th Cir. 1996)

19

Wagner v. NutraSweet Co., 170 F.R.D. 448 (N.D. Ill. 1997)

18

Walker v. Sauvinet, 92 U.S. 90 (1876)

13

Williams v. Burlington Northern, Inc., 832 F.2d 100 (7th Cir. 1987)

23

Statutes:
18 U.S.C§ 1512

7

18 U.S.C. § 1589(c)(1)

7

18 U.S.C. § 1593

1

18 U.S.C. § 1594

1

18 U.S.C. § 1595

1

28 U. S. C. § 455

7

28 U.S. C. § 1391

1

28 U.S.C. § 1294(1)

1

28 U.S.C. § 1331

1

Appendix
38a
28 U.S.C. § 1343

1

28 U.S.C. §2107(b)

1

28 U.S.C. § 2201

1, 14

28 U.S.C. § 2202

1, 14

28 U.S.C. §1291

1

42 U.S.C. § 1981

1

42 U.S.C. § 1981a.

1, 23

42 U.S.C. § 1985(3)

1

42 U.S.C. § 1986

1

42 U.S.C. § 1988

1

42 U.S.C. § 2000-5(f)(3)

1

Civil Rights Act of 1991

1

Section 501 of the Rehabilitation Act of 1973, 29 U.S.C. § 791

1

Title VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000(e) et seq

1

U.S. Constitution:
U.S. Const. Amend. V, cl. 4

passim

U.S. Const. Amend. XIII, § 1

passim

U.S. Const. Article III, § 3

v

Rules:
Federal Rules of Civil Procedure:
Rule 23(a)(1)

18

Rule 23(a)(2)

18, 19

Appendix
39a
Rule 23(a)(3)

19

Rule 23(a)(4)

20

Rule 23(b)(2)

20, 21, 23

Rule 23(b)(3)

21,22,23

Rule 23(c)(2)

24

Rule 23(d)(2)

23

Rule 23(d)(5)

23

Federal Rules of Appellate Procedure:
Rule 3(a)(1)

1

Rule 4(a)(1)(B)

1

Rule 32(a)(5)

25

Rule 32(a)(6)

25

Rule 32(a)(7)(B)

25

Code of Federal Regulations:
10 C.F.R. 10.11
29 C.F.R. § 1614.105 (a)(1)

3

21

Appendix
40a
Jurisdictional Statement
The District Court had jurisdiction pursuant to Title VII of the Civil Rights Act of
1964, 42 U.S.C. § 2000(e) et seq., as amended, the Civil Rights Act of 1991, the first section
of the Thirteenth Amendment to the United States Constitution, section 501 of the
Rehabilitation Act of 1973, as amended, 29 U.S.C. § 791, and pursuant to 28 U.S.C. § 1331,
which conferred original jurisdiction on the District Court in a civil action arising under the
Constitution or laws of the United States, 28 U.S.C. § 1343, 28 U.S.C. § 2201, and 28 U.S.C.
§ 2202, 42 U.S.C. § 1988, 42 U.S.C. § 1981, 42 U.S.C. § 1981a, 42 U.S.C. § 1985(3), 42 U.S.C.
§ 1986, 18 U.S.C. § 1593, 18 U.S.C. § 1594, 18 U.S.C. § 1595. Plaintiff brought ongoing class
action complaint on his own behalf and on behalf of others as a class defined in Plaintiffs
amended complaint filed October 1, 2018, and as a private attorney general on behalf of the
general public. Venue was proper in this judicial district pursuant to 42 U.S.C. § 2000-5(f)(3)
and 28 U.S. C. § 1391.
The United States Court of Appeals for the Seventh Circuit has jurisdiction over this
appeal pursuant to 28 U.S.C. §1291 and 28 U.S.C. § 1294(1). Final Judgment was entered
by the District Court on September 25, 2019, that disposed of all claims in the case. No
motion to alter or amend judgment was filed. Notice of Appeal was timely filed with the
District Court Clerk on November 20, 2019 (App. at A9). Under Federal Rules of Appellate
Procedure 4(a)(1)(B), when the United States or a United States agency or a United States
officer or employee sued in an official capacity or a current or former United States officer
or employee sued in an individual capacity is a party, the notice of appeal may be filed by
any party within 60 days after the judgment or order appealed from is entered. This appeal
is therefore timely under 28 U.S.C. § 2107(b) and Federal Rules of Appellate Procedure
3(a)(1) and 4(a)(1)(B).
As similarly asserted in paragraph 20 of Plaintiff-Appellant’s amended complaint (App. at A2)
filed October 1,2018, the term Defendant-Appellee identified in the above caption refers to a combination
of persons united (or joined) as one in their official and individual capacity. Each member becomes or
acts as the agent of every other member. “[T]he agreement was a tacit understanding, created by a long
course of conduct and executed in the same way. Not the form or manner in which the understanding is
made, but the fact of its existence and the further one of making it effective by overt conduct are the crucial

Appendix
41a
matters.” Direct Sales Co. v. United States, 319 U.S. 703, 714 (1943) (emphasizing “prolonged
cooperation”). The act of one partner may be the act of all.
Statement of Issues Presented for Review
1.

Whether the first section of the Thirteenth Amendment to the United States

Constitution, by its own unaided force and effect, nullified Judge Norgle’s arbitrary
dismissal of the case, and his arbitrary denial of class certification and dismissal of class
action complaint (Count 1), for having the effect of upholding Defendant’s ongoing
discriminatory hiring and promotion policies (or customs having the force of law) inflicting
involuntary servitude on members of the Black male class, including Plaintiff-Appellant as
a member?
2.

Whether Defendant’s ongoing discriminatory hiring and promotion policies (or

customs having the force of law) inflicting involuntary servitude on members of the Black
male class, including Plaintiff-Appellant as a member, have deprived and continue to
deprive said class members of their right to be free from involuntary servitude without due
process of law under the Due Process Clause of the Fifth Amendment to the United States
Constitution?
3.

Whether the requirements of Rule 23(a) and (b) of the Federal Rules of Civil

Procedure are satisfied as alleged in Count 1 of Plain tiff-Appellant’s amended complaint
filed October 1, 2018?
Statement of the Case
(The Underlying Proceedings in the District Court)
On July 2, 2018, Plaintiff filed a civil complaint consisting of four causes of action in
the U.S. District Court for The Northern District of Illinois, Eastern Division. The case was
assigned to Judge Charles R. Norgle, Sr. The first cause of action (Count 1) alleged a class
claim of an ongoing pattern or practice of retaliatory discrimination based on opposition
brought under Title VII of the Civil Rights Act of 1964, as amended. The class claim included
not only an ongoing class action complaint of race and sex discrimination in hiring and
promotion policies, but also an ongoing pattern or practice of involuntary servitude violating
the first section of the Thirteenth Amendment to the United States Constitution and other

Appendix
42 a
laws and depriving class members of their Thirteenth Amendment right to be free from
involuntary servitude. The second cause of action (Count 2) alleged an individual claim of
disability discrimination brought under section 501 of the Rehabilitation Act of 1973, as
amended, 29 U.S.C. § 791. The third cause of action (Count 3) alleged an individual claim
of retaliatory disability discrimination based on opposition brought under section 501 of the
Rehabilitation Act of 1973, as amended, 29 U.S.C. § 791. The fourth cause of action (Count
4) alleged an individual claim of race and sex discrimination in the application of the NRC
10 C.F.R. 10 process brought under Title VII of the Civil Rights Act of 1962, as amended.
On July 17, 2018, Judge Norgle dismissed the first cause of action (Count 1) pursuant
to 28 U.S.C. § 1915(e)(2)(B)(ii), denied Plaintiffs in forma pauperis application and financial
affidavit, and denied Plaintiff's motion for attorney representation.
On July 26, 2018, Plaintiff filed a motion for leave to amend complaint.
On August 2, 2018, Judge Norgle denied Plaintiffs motion for leave to amend
complaint since, according to the Judge, Plaintiff had neither paid the filing fee nor
submitted an amended motion for leave to proceed in forma pauperis.
On August 8, 2018, Plaintiff filed a motion for reconsideration of denial of leave to
amend complaint, including an amended motion for leave to proceed in forma pauperis and
an application for appointment of counsel.
On August 16, 2018, Judge Norgle ordered “Defendants” to respond to Plaintiffs
motion for reconsideration, and such response was due on or before August 31, 2018.
Plaintiffs reply was due on or before September 7, 2018. Defendant did not respond to
Plaintiffs motion for reconsideration.
On August 27, 2018, Judge Norgle issued an order that denied Plaintiffs amended in
forma pauperis application and financial affidavit. Plaintiffs motion for reconsideration of
denial of leave to amend complaint pursuant to Rule 15 of the Federal Rule of Civil
Procedure was denied as moot. The order stated that Plaintiff must pay the requisite fee if
he wished to pursue this case. Plaintiffs motion for attorney representation was also denied.
As indicated in the order, Judge Norgle’s reason for the denial of Plaintiffs amended in
forma pauperis application and financial affidavit was because Plaintiff failed to answer
question 4 of such application and affidavit. Strangely, Judge Norgle did not indicate in his

Appendix
43a
previous orders that Plaintiff had failed to answer question 4 of such application and
affidavit. Nonetheless, Plaintiff believed that Judge Norgle gave an incorrect or misleading
representation of Plaintiff's amended in forma pauperis application and financial affidavit
in order to deny Plaintiffs motion for reconsideration of denial of leave to amend complaint.
Plaintiff sought to file an amended complaint to clarify the allegations made, or to cure a
defect, in the original complaint regarding the first cause of action (Count 1) dismissed by
Judge Norgle. Plaintiff believed that, since the dismissal of the first cause of action (Count
1), Judge Norgle was vehemently opposed to Plaintiff filing the amended complaint and
desired to compel Plaintiff to litigate only the alleged individual causes of action and not the
alleged class cause of action (Count 1) against Defendant.
On September 11, 2018, Plaintiff paid the requisite filing fee after having received
funds from the Nuclear Regulatory Commission for unused vacation time. Plaintiff then
filed a motion for reconsideration of denial of leave to amend complaint (App. at Al).
On September 13, 2018, Judge Norgle entered an order that said, verbatim, in part:
“the motion for reconsideration is taken under advisement. The court will issue an order.”
Rather than continue to wait for Judge Norgle to decide whether he would grant Plaintiffs
motion for reconsideration of denial of leave to amend complaint, on September 24, 2018,
Plaintiff requested the Clerk's Office to stamp date each summons and to issue the stamped
summons and the complaint filed July 2, 2018, to Plaintiff to be served on Defendant. After
having received notice that the stamped summons and the complaint filed July 2, 2018,
were properly served on Defendant, on October 1, 2018, Plaintiff filed an amended
complaint. Pursuant to Rulel5 (a)(1)(A) of the Federal Rules of Civil Procedure, Plaintiff
did not need permission nor consent prior to filing an amended complaint. On November 27,
2018, Defendant filed an answer to Plaintiffs amended complaint, and Plaintiff thereafter
filed a response to Defendant’s answer on December 19, 2018. Due to a partial shutdown of
the federal government, proceedings in Judge Norgle’s court did not resume until March 6,
2019. On March 6, 2019, Judge Norgle entered an order setting a status hearing for March
26, 2019.
On March 26, 2019, the scheduled status hearing was held without Plaintiff being
present. Plaintiff was not present at the hearing due to his obligation to serve as a juror in

Appendix
44a
a criminal trial in a criminal court of Cook County on March 26, 2019. For that reason,
Plaintiff requested of Judge Norgle to continue the hearing on another date. During or after
the status hearing, Judge Norgle entered an order that said, verbatim: “Status hearing held
on 3/26/2019. Status hearing is continued to 4/24/2019 at 10:00 a.m. Plaintiff shall appear.”
On April 24, 2019, the scheduled status hearing was held with only Plaintiff being
present and not Defendant’s counsel of record. After saying good morning to each other,
Judge Norgle started the hearing by asking Plaintiff whether he was represented by an
attorney. Plaintiff responded “no” to the Judge’s question. Speaking to Plaintiff in a raised
tone of voice, Judge Norgle repeatedly asked whether Plaintiff was an attorney. Although
feeling intimidated, Plaintiff responded to the Judge’s question by stating “I’m a Private
Attorney General.” Judge Norgle also repeatedly asked Plaintiff, “What did defendant do to
you?” Plaintiff responded to the Judge’s question by referring the Judge to the allegations
in Plaintiffs filed complaint. Sensing that Judge Norgle wanted to focus only on Plaintiffs
individual allegation(s), Plaintiff reminded the Judge that Plaintiff filed a class action
complaint. Judge Norgle responded to Plaintiffs statement by stating that one must be an
attorney in order to file a class action complaint. Despite Judge Norgle’s response to
Plaintiffs statement, Plaintiff asked the Judge whether he would certify Plaintiffs class
action complaint (pursuant to Fed. R. Civ. P. 23). Judge Norgle responded to Plaintiffs
question with “no, class action complaint is dismissed.” Plaintiff believed that the denial of
class certification and dismissal of Plaintiffs class action complaint amounted to a decision
by Judge Norgle. Judge Norgle did not inform Plaintiff that the requirements of Fed. R. Civ.
P. 23 were not satisfied as alleged in the first cause of action (Count 1) of Plaintiff s amended
complaint filed October 1, 2018. Nor did Judge Norgle state in his order dated April 24, 2019
or April 25, 2019, that the requirements of Fed. R. Civ. P. 23 were not satisfied as alleged
in the first cause of action (Count 1) of Plaintiffs amended complaint filed October 1, 2018.
In essence, Plaintiff believed that Judge Norgle arbitrarily denied class certification and
dismissed class action complaint (Count 1) in order to exert pressure on Plaintiff to proceed
with the individual causes of action and to refrain from proceeding with the class cause of
action. See paragraph 9 of Plaintiffs amended complaint filed October 1, 2018, regarding
18 U.S.C. § 1589(c)(1). In addition, Plaintiff believed that 18 U.S.C § 1512 (witness

Appendix
45a
tampering statute) made it unlawful to prevent testimony of witnesses such as Plaintiff and
potential class members. See paragraph 33 of Plaintiffs amended complaint filed October
1, 2018, regarding “testimonies from class members.” Plaintiff had no doubt that 18 U.S.C
§ 1512 protected actual as well as potential witnesses in civil and criminal proceedings.
On June 7,2019, Plaintiff filed a motion for recusal or disqualification of Judge Norgle
for bias or partiality pursuant to 28 U. S. C. § 455 and Marshall v Jerrico Inc., 446 US 238,
242 (1980) (App. at A3). The filed motion was scheduled for a June 14, 2019 hearing before
Judge Norgle.
On June 14, 2014, the scheduled hearing was held regarding Plaintiffs motion for
recusal or disqualification of Judge Norgle. Judge Norgle did not rule on Plaintiffs motion
but indicated that the motion was taken under advisement.
On June 17, 2019, Judge Norgle denied Plaintiff’s motion for recusal or
disqualification. Judge Norgle’s Order denying Plaintiff’s motion for recusal or
disqualification was not entered until June 19, 2019.
Seizing upon the opportunity of Plaintiff being compelled to proceed as “pro se” in the
case, Defendant filed, on August 9, 2019, amotion to compel responses to discovery (App. at
A4). On August 12, 2019, Plaintiff filed a response to Defendant’s motion to compel
responses to discovery (App. at A5).
On August 15, 2019, Judge Norgle granted Defendant’s motion to compel responses
to discovery and scheduled a status hearing for September 25, 2019.
On September 20, 2019, Defendant filed a second motion to compel responses to
discovery (App. at A6). On September 23, 2019, Plaintiff filed a second response to
Defendant’s second motion to compel responses to discovery (App. at A7).
On September 25, 2019, during the scheduled status hearing, Judge Norgle dismissed
case and stated so in the final judgment without making any of class determinations
(numerosity, commonality, typicality, adequacy of representation, predominance of common
issues, etc.) pursuant to Fed. R. Civ. P. 23 (App. at A8). This appeal followed.

Appendix
46a
Summary of Argument
The arguments raised by Plain tiff-Appellant herein address threshold issues. First,
Plaintiff-Appellant argues that the first section of the Thirteenth Amendment to the
Constitution of the United States, by its own force and effect, nullified Judge Norgle’s
arbitrary dismissal of the case, and his arbitrary denial of class certification and dismissal
of class action complaint (Count 1), for having the effect of upholding Defendant’s ongoing
discriminatory hiring and promotion policies (or customs having the force of law) inflicting
involuntary servitude on members of the Black male class, including Plain tiff-Appellant as
a member. Second, Plain tiff-Appellant argues that Defendant’s ongoing discriminatory
hiring and promotion policies (or customs having the force of law) inflicting involuntary
servitude on members of the Black male class, including Plaintiff-Appellant as a member,
have deprived and continue to deprive said class members of their Thirteenth Amendment
right to be free from involuntary servitude without due process of law under the Due Process
Clause of the Fifth Amendment to the United States Constitution. Third, PlaintiffAppellant argues that the requirements of Rule 23(a) and (b) of the Federal Rules of Civil
Procedure are satisfied as alleged in Count 1 of Plaintiff-Appellant’s amended complaint
filed October 1, 2018.
Argument
C. Standard of Review
De novo is the standard of review for all issues presented in this appeal.
D. Plaintiff-Appellant argues that the first section of the Thirteenth
Amendment to the United States Constitution, by its own unaided force
and effect, nullified Judge Norgle’s arbitrary dismissal of the case, and
his arbitrary denial of class certification and dismissal of class action
complaint, for having the effect of upholding Defendant’s ongoing
discriminatory hiring and promotion policies (or customs having the
force of law) inflicting involuntary servitude on members of the Black
male class, including Plaintiff-Appellant as a member.
During a status hearing held on April 24, 2019, Plaintiff-Appellant asked Judge
Norgle whether he would certify Plaintiff-Appellant’s class action complaint (pursuant to

Appendix
47a
Fed. R. Civ. P. 23). Judge Norgle responded to Plaintiff-Appellant’s question with “no, class
action complaint is dismissed.” The denial of class certification and dismissal of PlaintiffAppellant’s class action complaint amounted to a decision by Judge Norgle. See paragraphs
11, 12, 13, and 14 of Plaintiff-Appellant’s motion for recusal or disqualification of Judge
Norgle filed June 7, 2019 (App. at A3). As Plain tiff-Appellant repeatedly asserted, the first
section of the Thirteenth Amendment to the United States Constitution nullified Judge
Norgle’s decision rendered on April 24, 2019, and implemented in an order entered on April
25, 2019, for having the effect of upholding Defendant’s ongoing discriminatory hiring and
promotion policies (or customs having the force of law) inflicting involuntary servitude on
members of the Black male class. As stated in the Civil Rights Cases, 109 U.S. 3, 20 (1883),
the first section of the Thirteenth Amendment “is undoubtedly self-executing.”
Self-executing means, among others, “effective immediately without the need
of intervening court action.” West’s Encyclopedia of American Law, 2nd Edition
(2008).
The Thirteenth Amendment is “an absolute declaration that slavery or involuntary
servitude shall not exist in any part of the United States” Jones v. Alfred H. Mayer Co., 392
U.S. 409, 438 (1968). “By its own unaided force and effect,” the Thirteenth Amendment
“abolished slavery, and established universal freedom.” Jones, 392 U.S. at 439 (quoting Civil
Rights Cases, 109 U.S. at 20). “Slavery implies involuntary servitude,” Plessy v. Ferguson,
163 U.S. 537, 542 (1896). See Bailey v. State of Alabama, 219 U.S. 219, 241 (1911) (“The
plain intention [of the Thirteenth Amendment] was to abolish slavery of whatever name
and form and all its badges and incidents; to render impossible any state of bondage; to
make labor free, by prohibiting that control by which the personal service of one man is
disposed of or coerced for another's benefit, which is the essence of involuntary servitude.”).
The “[Thirteenth Amendment] is ... a prohibition against the ... enforcement of any law
inflicting ... involuntary servitude ...” United States v. Cruikshank, 25 F. Cas. 707, 711 (1
Woods, 308) (C.C.D. La. 1874) (No. 14,897). The Thirteenth Amendment restrains not only
government actors, but also private individuals. See Hodges v. United States, 203 U.S. 1, 26
(1906) (the Thirteenth “Amendment became a part of the supreme law of the land, and, as
such, binding upon all the states and all the people as well as upon every branch of

Appendix
48 a
government, federal and state.”).
E. Plaintiff-Appellant argues that Defendant’s ongoing discriminatory hiring and
promotion policies (or customs having the force of law) inflicting involuntary
servitude on members of the Black male class, including Plaintiff-Appellant as a
member, have deprived and continue to deprive said class members of their
Thirteenth Amendment right to be free from involuntary servitude without due
process of law under the Due Process Clause of the Fifth Amendment to the United
States Constitution.
The Due Process Clause of the Fifth Amendment to the United States Constitution
provides in relevant part that ”[n]o person shall ... be deprived of life, liberty or property,
without due process of law.” The Due Process Clause “is a restraint on the legislative as well
as on the executive and judicial powers of the government...” Murray v. Land & Imp. Co.,
59 U.S. 272, 276 (1856). The Due Process Clause “is intended to prevent government officials
from abusing their power, or employing it as an instrument of oppression.” Cummings v.
Mclntire, 271 F.3d 341, 346 (1st Cir. 2001); County of Sacramento v. Lewis Collins, 523 U.S.
833, 840 (1998); DeShaney v. Winnebago County Dept, of Social Servs., 489 U. S. 189, 196
(1989). “Due process of law is process due according to the law of the land.” Walker v.
Sauvinet, 92 U.S. 90, 93 (1876). Due process of law “is not confined to judicial proceedings,
but extends to every case which may deprive a citizen of life, liberty, or property, whether
the proceeding be judicial, administrative, or executive in its nature.” Ulman v. Mayor,
etc. of Baltimore, 72 Md 587, 593, 20 A 141, 142 (1890), aff'd, 165 US 719 (1897). The “due
process” guaranteed by the Fifth Amendment means that “there can be no proceeding
against life, liberty, or property which may result in the deprivation of either, without the
observance of those general rules established in our system of jurisprudence for the security
of private rights .... If any of these (general rules) are disregarded in the proceedings by
which a person is condemned to the loss of life, liberty, or property, then the deprivation has
not been by ‘due process of law.”’ United States v. Masaaki Kuwabara, 56 F. Supp. 716, 719
(N.D. Cal. 1944) (quoting Hagar v. Reclamation District No. 108, 111 U.S. 701, 708 (1884),
Hurtado v. California, 110 U.S. 516 (1884)).
The procedural due process, which is a component of the Due Process Clause of the
Fifth Amendment to the United States Constitution, requires government officials to follow
fair procedures before depriving a person of life, liberty, or property. See, e.g., Harley v. City

Appendix
49a
of Jersey City, No. 16-5135, 2017 WL 2779466, at *20 (D.N.J. June 27, 2017); Goss v. Lopez,
419 U.S. 565 (1975). By requiring the government to follow appropriate procedures when its
agents decide to “deprive any person of life, liberty, or property,” the Due Process Clause
promotes fairness in such decisions. Daniels v. Williams, 474 U.S. 327, 332 (1986). See
Matthews v. Eldridge, 424 U.S. 319, 332 (1976) (“Procedural due process imposes
constraints on governmental decisions which deprive individuals of ’liberty’ or ’property’
interests within the meaning of the Due Process Clause of the Fifth ... Amendment.”); see
also Carey v. Piphus, 435 U.S. 247, 259 (1978) (“Procedural due process rules are meant to
protect persons not from the deprivation, but from the “unjustified deprivation of life,
liberty, or property.”).
Plaintiff-Appellant has no doubt that there is ‘liberty interest to be free from
involuntary servitude” within the meaning of the Due Process Clause of the Fifth
Amendment to the United States Constitution. See, e.g., Meyer v. Nebraska, 262 U.S. 390,
399 (1923); United States v. Kozminski, 487 U.S. 931 (1988). A fundamental right or liberty
interest is one that is “deeply rooted in this Nation's history and tradition” and “implicit in
the concept of ordered liberty.” Seegmiller v. Laverkin City, 528 F.3d 762, 767 (10th Cir.
2008) (quoting Chavez v. Martinez, 538 U.S. 760, 775 (2003)). Indeed, the Thirteenth
Amendment right to be free from involuntary servitude is a protected liberty interest under
the Due Process Clause of the Fifth Amendment. Plaintiff-Appellant points out that the
Declaratory Judgment Act, 28 U.S.C. § 2201, "expands the scope of available remedies" and
permits persons "to seek a declaration of the constitutionality of the disputed government
action." Deveraux v. City of Chicago, 14 F.3d 328, 330 (7th Cir. 1994) (citing Duke Power Co.
v. Carolina Environmental Study Group, Inc., 438 U.S. 59, 71 n. 15 (1978)). If a party obtains
a declaratory judgment, that “judgment can then be used as a predicate to further relief,
including an injunction. 28 U.S.C. § 2202.” Powell v. McCormack, 395 U.S. 486, 499 (1969).
In this case, Plaintiff-Appellant seeks broad declaratory and injunctive relief for members
of the Black male class and for Defendant’s unconstitutional conduct.
From the language of the class allegations set forth in the first cause of action (Count
1) of Plaintiffs amended complaint filed October 1, 2018, it is clear that the deprivation of
the Thirteenth Amendment right to be free from involuntary servitude results from

Appendix
50a
Defendant’s ongoing discriminatory hiring and promotion policies (or customs having the
force of law) inflicting involuntary servitude on members of the Black male class, including
Plaintiff-Appellant as a member. Needless to say, before the deprivation of the Thirteenth
Amendment right to be free from involuntary servitude can occur, class member of the Black
male class must have been “duly convicted” of a crime as required by the first section of the
Thirteenth Amendment to the United States Constitution. See Robertson v. Baldwin, 165
U.S. 275, 292 (1897) (Harlan, J., dissenting) (“As to involuntary servitude, it may exist in
the United States; but it can only exist lawfully as a punishment for crime of which the
party shall have been duly convicted. Such is the plain reading of the constitution.”). With
respect to the deprivation, there has been no pre-deprivation written notice, hearing, or
conviction for a crime (and, as a result of this, a denial of the right to procedural due process).
As stated in Abbott v. Latshaw, 164 F.3d 141 (3d Cir. 1998), "[i]t is elementary that
procedural due process is implicated only where someone has claimed that there has been
a taking or deprivation of a legally protected liberty or property interest." Abbott, 164 F.3d
at 146 (citing Board of Regents v. Roth, 408 U.S. 564, 569 (1972)).
The core elements of procedural due process are the right to notice and an opportunity
for a hearing to challenge the validity of a deprivation of life, liberty, or property by the
government. “Governmental deprivation ... must be accompanied by minimum procedural
safeguards, including some form of notice and a hearing.” Arnett v. Kennedy, 416 U.S. 134,
164 (1974). See Fuentes v. Shevin, 407 U.S. 67, 80 (1972) (“For more than a century the
central meaning of procedural due process has been clear: ‘Parties whose rights are to be
affected are entitled to be heard; and in order that they may enjoy that right they must first
be notified.’”); see also Pugel v. Bd. of Tr. of Univ. of III., 378 F.3d 659, 662 (7th Cir. 2004)
(“The hallmarks of procedural due process are notice and an opportunity to be heard.”). At
a minimum, the Due Process Clause of the Fifth Amendment to the United States
Constitution requires that “deprivation of... liberty ... by adjudication be preceded by notice

Appendix
51a
and opportunity for hearing appropriate to the nature of the case." Mullane v. Central
Hanover Tr. Co., 339 U.S. 306, 313 (1949).
Plain tiff-Appellant believes that action denying “the process that is due” is invalid
and unconstitutional and is equally applicable to Judge Norgle’s arbitrary dismissal of the
case.
F. Plaintiff-Appellant argues that the requirements of Rule 23(a) and (b) of the Federal
Rules of Civil Procedure are satisfied as alleged in Count 1 of Plaintiff-Appellant’s
amended complaint filed October 1, 2018.
1. The District Court entered the final judgment without making any of class
determinations (numerosity, commonality, typicality, adequacy of representation,
predominance of common issues, etc.) pursuant to Fed. R. Civ. P. 23.
Fed. R. Civ. P. 23(c)(1)(A) provides, in relevant part: When a person sues...as a
representative of a class, the court must...determine by order whether to certify the action
as a class action. As the Supreme Court stated in the case of General Telephone Co. v.
Falcon, 457 U.S. 147, 161 (1982): “Class determination generally involves considerations
that are enmeshed in the factual and legal issues comprising the plaintiffs cause of action.”
“Sometimes the issues are plain enough from the pleadings to determine whether the
interests of the absent parties are fairly encompassed within the named plaintiff’s claim...”
In supplement to this, the Supreme Court stated in the case of Eisen v. Carlisle & Jacquelin,
417 U.S. 156, 178 (1974) (quoting Miller v. Mackey International, 452 F.2d 424, 427 (CA5
1971)): “In determining the propriety of a class action, the question is not whether the
plaintiff or plaintiffs have stated a cause of action or will prevail on the merits, but rather
whether the requirements of Rule 23 are met.”
2. The requirements of Rule 23(a) and (b) of the Federal Rules of Civil
Procedure have been satisfied.
Fed. R. Civ. P. 23(a) sets out the prerequisites to a class action. Rule 23(a) states:
“One or more members of a class may sue or be sued as representative parties on
behalf of all only if (1) the class is so numerous that joinder of all members is
impracticable, (2) there are questions of law or fact common to the class, (3) the claims
or defenses of the representative parties are typical of the claims or defenses of the

Appendix
52a
class, and (4) the representative parties will fairly and adequately protect the
interests of the class.”
The plaintiff has the burden of proving that a case is appropriately a class action and
meets all the requirements of Rule 23. Valentino v. Howlett, 528 F.2d 975, 978 (7th Cir.
1976). These requirements effectively ‘limit the class claims to those fairly encompassed by
the named plaintiff’s claims.” General Tel. Co. of the Northwest v. EEOC, 446 U.S. 318, 330
(1980); see also General Tel. Co. of Southwest v. Falcon, 457 U.S. 147, 156 (1982). “Failure
to meet any one of the requirements of Rule 23 precludes certification of a class.” Valentino,
528 F.2d at 978. Once these requirements are satisfied, the plaintiff must also satisfy one
of the subsections of Rule 23(b). See General Tel. Co. of Southwest v. Falcon, 457 U.S. 147,
156 (1982); Retired Chicago Police Ass’n u. City of Chicago, 7 F.3d 584, 596 (7th Cir. 1993).
1. Rule 23(a)(1) - Numerosity
“The numerosity requirement requires examination of the specific facts of each
case and imposes no absolute limitations.” General Tel. Co. of the Northwest v. EEOC, 446
U.S. 318, 330 (1980). Plaintiffs seeking class certification are not required to specify the
exact number of persons in the class, Vergara v. Hampton, 581 F.2d 1281, 1284 (7th Cir.
1978), but must provide some facts to substantiate the claim that the number of persons is
too numerous to be joined to the action, Valentino v. Howlett, 528 F.2d 975, 978 (7th Cir.
1976). Although the exact number of class members is not specified in Plaintiff-Appellant’s
class action complaint, facts are provided. “Courts are not infrequently called upon to
proceed with causes in which the number of those interested in the litigation is so great as
to make difficult or impossible the joinder of all because some are not within the jurisdiction
or because their whereabouts is unknown or where if all were made parties to the suit its
continued abatement by the death of some would prevent or unduly delay a decree. In such
cases where the interests of those not joined are of the same class as the interests of those
who are, and where it is considered that the latter fairly represent the former in the

Appendix
53a
prosecution of the litigation of the issues in which all have a common interest, the court will
proceed to a decree.” Hansberry v. Lee, 311 U.S. 32, 41-42 (1940).
2. Rule 23(a)(2) - Commonality
The commonality requirement requires “questions of law or fact common to the class.”
As the Seventh Circuit explained: “The fact that there is some factual variation among the
class grievances will not defeat a class action. A common nucleus of operative fact is usually
enough to satisfy the commonality requirement of Rule 23(a)(2).” Rosario v. Livaditis, 963
F.2d 1013, 1017-18 (7th Cir. 1992). Commonality does not require that all questions of fact
or law be identical. Johns v. DeLeonardis, 145 F.R.D. 480, 482 (N.D. Ill. 1992). Rather, the
commonality requirement is satisfied as long as “the class claims arise out of the same legal
or remedial theory.” Johns, 145 F.R.D at 483. As one court noted, “[c]ommonality is not a
demanding requirement: It calls only for the existence of at least one issue of fact or law
common to all class members.” Meiresonne v. Marriot Corp., 124 F.R.D. 619, 622 (N.D. Ill.
1989); see also Wagner v. NutraSweet Co., 170 F.R.D. 448, 450 (N.D. Ill. 1997) (must show
at least one question is common to the class). Plaintiff-Appellant has shown common
questions pertaining to the class.
3. Rule 23(a)(3) - Typicality
The typicality requirement requires that claims of Plaintiff are typical of the claims
of the class members. "Typicality under Rule 23(a)(3) should be determined with reference
to the company’s actions, not with respect to particularized defenses it might have against
certain class members." Wagner v. Nutrasweet Company, 95 F.2d 527, 534 (7th Cir. 1996).
As the Seventh Circuit held, “[t]he question of typicality in Rule 23(a)(3) is closely related
to the preceding question of commonality .... [A] plaintiffs claim is typical if it arises from
the same event or practice or course of conduct that gives rise to the claims of other class
members and his ... claims are based on the same legal theory.” Rosario v. Livaditis, 963
F.2d at 1018. As with commonality, “[t]he typicality requirement may be satisfied even if
there are factual distinctions between the claims of the named plaintiffs and those of other
class members.” De La Fuente v. Stokely-Van Camp, Inc., 713 F.2d 225, 232 (7th Cir. 1983).
“Instead, we look to the defendant’s conduct and the plaintiffs legal theory to satisfy Rule

Appendix
54a
23(a)(3).” Rosario, 963 F.2d at 1018; Wagner v. Nutrasweet Co., 95 F.3d 527, 534 (7th Cir.
1996). Plaintiff-Appellant has shown that the claims of Plaintiff-Appellant and the class
members arise out of common facts and similar legal and remedial theories.
4. Rule 23(a)(4) - Adequacy of Representation
The adequacy-of-representation requirement requires that the class representatives
“will fairly and adequately protect the interests of the class.” To satisfy the adequacy
requirement, Plaintiffs must have common interests with the class members, and must
vigorously prosecute the interests of the class through qualified counsel. Cf. Sosna v. Iowa,
419 U.S. 393 (1975); accord Susman v. Lincoln American Corp., 561 F.2d 86, 90 (7th Cir.
1977). “A representative must be part of the class and possess the same interest and suffer
the same injury as the class members.” E.g., East Tex. Motor Freight System, Inc. v.
Rodriguez, 431 U.S. 395, 403 (1977).
In the case of General Tel. Co. of Southwest v. Falcon, 457 U.S. 147, 157-158, n. 13,
the Supreme Court noted: “The commonality and typicality requirements of Rule 23(a) tend
to merge. Both serve as guideposts for determining whether under the particular
circumstances maintenance of a class action is economical and whether the named plaintiff's
claim and the class claims are so interrelated that the interests of the class members will
be fairly and adequately protected in their absence. Those requirements therefore also tend
to merge with the adequacy-of-representation requirement....” See Keele v. Wexler, 149 F.3d
589, 594 (7th Cir. 1998).
Indeed, Plaintiff-Appellant, as a class member and a class agent and a private
attorney general, will “fairly and adequately protect the interests of the class,” and PlaintiffAppellant and members of the class share a common interest (with no conflict) and suffer
the same injury, thus meeting with requirement of Rule 23(a)(4). In addition an
appointment of interim or class counsel is sought pursuant to Fed. R. Civ. P. 23(g).
5. Rule 23(b)(2) - Injunctive and Declaratory Relief
Fed. R. Civ. P. 23(b)(2) requires that “the party opposing the class has acted or refused
to act on grounds generally applicable to the class, thereby making appropriate final
injunctive relief or corresponding declaratory relief with respect to the class as a whole.” To

Appendix
55a
satisfy this requirement, Plaintiff-Appellant alleges, among others, that DefendantAppellee’s system of decision-making has resulted in retaliatory discrimination against the
class and Plaintiff-Appellant, and that Defendant-Appellee’s system of decision-making has
resulted in a disparate treatment of, and has resulted in a disparate impact on, the class
and Plaintiff-Appellant as a whole. In addition, Plaintiff-Appellant seeks declaratory relief
that Defendant-Appellee’s pattern or practice and/or ongoing discriminatory policies violate
federal law and injunctive relief designed to end and remedy the effect of the DefendantAppellee’s pattern or practice and/or ongoing discriminatory policies. Such relief by its
nature is applicable to the class as a whole and satisfies Rule 23(b)(2)’s requirement that
declaratory and injunctive refief be appropriate.
6. Rule 23(b)(3) - Predominance and Superiority
Fed. R. Civ. P. 23(b)(3) requires "that the questions of law or fact common to the
members of the class predominate over any questions affecting only individual members,
and that a class action is superior to other available methods" for the fair and efficient of
adjudication of the controversy. To satisfy this requirement, Plaintiff-Appellant alleges that
class certification is also appropriate in this case because, as set forth in more detail in the
amended class action complaint (Count 1), common questions predominate over those
affecting class members individually, and that a class action is superior to other available
methods of resolving this controversy. The alternative to class treatment is certainly
numerous individual suits. Such a multiplicity of actions would defeat the economies of scale
inherent in the class action procedure and result in substantial waste of judicial resources.
Thus, from the viewpoint of public policy, transactional costs and judicial economy, multiple
litigations would be manifestly inferior to a class action, thereby satisfying Fed. R. Civ. P.
23(b)(3).
In addition, due to the forty-five-day time limit being imposed by 29 C.F.R. § 1614.105
(a)(1) for allegations of discrimination and thus small recoveries of damages, “the plaintiffs
claim may be so small, or the plaintiff so unfamiliar with the law, that he would not file suit
individually....” Phillips Petroleum Co. v. Shutts, 472 U.S. 797, 813 (1985). “The aggregation
of individual claims in the context of a classwide suit is an evolutionary response to the

Appendix
56a
existence of injuries unremedied by the regulatory action of government. Where it is not
economically feasible to obtain relief within the traditional framework of a multiplicity of
small individual suits for damages, aggrieved persons may be without any effective redress
unless they may employ the class-action device. That there is a potential for misuse of the
class-action mechanism is obvious. Its benefits to class members are often nominal and
symbolic, with persons other than class members becoming the chief beneficiaries. But the
remedy for abuses does not he in denying the relief sought here, but with re-examination of
Rule 23 as to untoward consequences.” Deposit Guaranty Nat. Bank v. Roper, 445 U.S. 326,
339 (1980).
7. The Liability and Damages Phases
Given that Plaintiff-Appellant seeks certification of the case as a class action
pursuant to Fed. R. Civ. 23(b)(2) and/or 23(b)(3), In Lemon v. International Union of
Operating Engineers, Local No. 139, 216 F.3d 577 (7th Cir. 2000) (quoting Jefferson v.
Ingersoll International, Inc., 195 F.3d 894 (7th Cir. 1999)) the Seventh Circuit discussed
three options for the trial court to choose from in handling the liability and damages phases
of the case:
1) The first option is certifying the class under Rule 23(b)(3) for all proceedings. In this
category of lawsuit, the class members may seek either predominantly legal or
equitable remedies, but each member must share common questions of law or fact
with the rest of the class, therefore making class-wide adjudication of the common
questions efficient compared to repetitive individual litigation of the same questions.
In contrast to Rule 23(b)(2), however, certification under Rule 23(b)(3) entails
mandatory personal notice and opportunity to opt out for all class members, thereby
satisfying the due process concerns in Ortiz. See Fed. R. Civ. P. 23(c)(2); see also
Jefferson, 195 F.3d at 898.
2) The second option is divided certification. The district court could certify a Rule
23(b)(2) class for the portion of the case addressing equitable refief and a Rule 23(b)(3)
class for the portion of the case addressing damages. This avoids the due process
problems of certifying the entire case under Rule 23(b)(2) by introducing the Rule

Appendix
57a
23(b)(3) protections of personal notice and opportunity to opt out for the damages
claims. Since the Civil Rights Act of 1991 entitles the parties to a jury trial on claims
of intentional discrimination, see 42 U.S.C. § 1981a, a district court that proceeds
with divided certification must adjudicate the damages claims first before a jury to
preserve the Seventh Amendment right to a jury trial, even if adjudication of these
claims decides the equitable claims as well.
3) The third option discussed in Jefferson is that the district court might certify the class
under Rule 23(b)(2) for both monetary and equitable remedies but exercise its plenary
authority under Rules 23(d)(2) and 23(d)(5) to provide all class members with
personal notice and opportunity to opt out, as though the class was certified under
Rule 23(b)(3). In fact, a district court handled a class certified under Rule 23(b)(2)
much this way in Williams. We affirmed and held that the district court provided
opportunities to object that “were tantamount to the protections envisioned by Fed.
R. Civ. P. 23(c)(2) [for classes certified under subsection (b)(3)].” Williams v.
Burlington Northern, Inc., 832 F.2d 100, 104 (7th Cir. 1987).
Conclusion
Plaintiff-Appellant hereby urges this Court (1) to reverse Judge Norgle’s arbitrary
dismissal of the case, and his arbitrary denial of class certification and dismissal of the class
action complaint (Count 1), (2) to certify the first cause of action (Count 1) of PlaintiffAppellant’s amended complaint as a class action for an ongoing pattern or practice of
retaliatory discrimination based on opposition to unlawful discriminatory hiring and
promotion policies in violation of Title VII, a class action for an ongoing pattern or practice
of race and sex discrimination in hiring and promotion policies in violation of Title VII,
and/or a class action for declaratory and injunctive relief under 28 U.S.C. § 2201 and 28
U.S.C. § 2202 for violation of the first section of the Thirteenth Amendment and the Due
Process Clause of Fifth Amendment of the United States Constitution, (3) to appoint Class
Counsel pursuant to Fed. R. Civ. P. 23(g) as requested in Plaintiff-Appellant’s amended
complaint, (4) to reinstate Counts 2, 3, and 4 of Plaintiff-Appellant’s amended complaint,
and (5) to assign a different District Judge to preside over the case. If feasible, PlaintiffAppellant requests of this Court to retain jurisdiction over this case or controversy.

Appendix
58a

Respectfully submitted,
s/ Daniel L. Miles,
Plaintiff-Appellant, Class Agent
and Private Attorney General
17 North Taft Ave.
Hillside, IL 60162
Telephone: (708) 449-0379
E-mail: dlmiles@comcast.net
Dated: December 31, 2019

Appendix
59a
United States District Court
Northern District of Illinois
Eastern Division
Daniel L. Miles,
Plaintiff,

Case Number: 18 C 4571

v.

Honorable Charles R. Norgle Sr.

Kristine L Svinicki, et al.,
Defendant.
NOTIFICATION OF DOCKET ENTRY
This docket entry was made by the Clerk on Wednesday, April 24, 2019:
MINUTE entry before the Honorable Charles R. Norgle: Status hearing held
on 4/24/2019. Plaintiffs class allegations are dismissed. Mailed notice (ewf,)
ATTENTION: This notice is being sent pursuant to Rule 77(d) of the Federal Rules
of Civil Procedure or Rule 49(c) of the Federal Rule s of Criminal Procedure. It was
generated by CM/ECF, the automated docketing system used to maintain the civil
and criminal dockets of this District. If a minute order or other document is
enclosed, please refer to it for additional information.
For scheduled events, motion practices, recent opinions and other information, visit
our website at www.ilnd.uscourts.gov.

Appendix
60a
THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Daniel L. Miles, on own
behalf and on behalf of
others,
Plaintiffs),

Civil Action
Civil No.: l:18-cv-04571
Judge: Charles R. Norgle,
Sr.

vs.

Kristine L. Svinicki,
successor to Stephen
G. Burns, successor to
Allison M. Mcfarlane,
successor to Gregory B.
Jaczko, successor to Dale E.
Klein, Chairman,
Defendant(s).

AMENDED COMPLAINT AND DEMAND FOR JURY TRIAL
Preliminary Statement
1.

This is a class action complaint brought under Title VII of the Civil Rights Act

of 1964, as amended (also hereinafter, “Title VII”), for an ongoing pattern or practice of
retaliatory discrimination based on opposition. The ongoing class action complaint of race
and sex discrimination filed in federal court on August 11, 2006, (civil no. 06C 4351 ), is
central to the understanding of not only the class action complaint of an ongoing pattern or
practice of retaliatory discrimination based on opposition, but also the class action
complaint of an ongoing pattern or practice of involuntary servitude violating section 1 of
the Thirteenth Amendment to the United States Constitution (also hereinafter, “Thirteenth
Amendment”). This is also an individual complaint of disability discrimination, and an
individual complaint of retaliatory disability discrimination based on opposition, brought
under section 501 of the Rehabilitation Act of 1973, as amended, 29 U.S.C. § 791. This is in
addition an individual complaint brought under Title VII of the Civil Rights Act of 1962, as
amended, for race and sex discrimination in the application of the NRC 10 C.F.R. 10 process.

Appendix
61a
Jurisdiction and Venue
2.

The jurisdiction of this Court is invoked pursuant to Title VII of the Civil Rights Act

of 1964,42 U.S.C. § 2000(e) et seq., as amended, the Civil Rights Act of 1991, the first section
of the Thirteenth Amendment to the United States Constitution, section 501 of the
Rehabilitation Act of 1973, as amended, 29 U.S.C. § 791, and pursuant to 28 U.S.C. § 1331,
which confers original jurisdiction upon this Court in a civil action arising under the
Constitution or laws of the United States, 28 U.S.C. §§ 1343, 2201, and 2202, 42 U.S.C. §
1988, 42 U.S.C. § 1981, 42 U.S.C. § 1981a, 42 U.S.C. § 1985(3), 42 US.C. § 1986, 18 U.S.C.
§ 1593, 18 U.S.C. 1594, 18 U.S.C. § 1595. Plaintiff brings ongoing class action complaint on
his own behalf and on behalf of others as a class defined herein, and as a private attorney
general on behalf of the general public. Venus is proper in this judicial district pursuant to
42 U.S.C. § 2000-5(f)(3) and 28 U.S.C. § 1391.
Introduction
3.

Carrying on in the same way as alleged in the ongoing class action complaint of race

and sex discrimination filed by Plaintiff on August 11, 2006, in federal court approximately
12 years ago (civil no. 06C 4351), Region 3 of the U.S. Nuclear Regulatory Commission,
located in Lisle, IL 60532, has been carrying out part of its operations, for an estimated time
period of 43 years and counting, with a middle finger thrown up at Title VII of the Civil
Rights Act of 1964, as amended, and section 1 of the Thirteenth Amendment to the United
States Constitution and other laws. The statements set forth in paragraphs 21 through 26
should paint a clear picture in one’s mind as to what has been part of Region 3’s operations.
The U.S. Nuclear Regulatory Commission and its Region 3 office were initially opened for
business on or about January 19, 1975.
4.

Plaintiff, Daniel L. Miles, has been employed by Region 3 of the U.S. Nuclear

Regulatory Commission since January 27, 2002. Prior to being hired by Region 3, Plaintiff
had worked there as a federal contractor for approximately three years. Plaintiff has
exhausted his administrative remedies and fulfilled all conditions precedent to filing this
suit and have received on May 14, 2018, the right to file a civil action in federal court.

Appendix
62a
Statement of Facts
Twelve Years and Counting Since
Plaintiffs Initial EEO Complaint on or about
December 15, 2005
5.

On or about December 15, 2005, Plaintiff initiated Defendant’s EEO counseling on

a class action complaint, alleging, among others, that a pattern or practice of race and sex
discrimination and ongoing discriminatory hiring and promotion policies have resulted in a
disparate treatment of, and have resulted in a disparate impact on, Black males, including
Plaintiff, and stating that Plaintiff, as a class agent, is representing current and former
Black male employees and applicants for employment (including applicants who would have
applied but for the discrimination) at Region 3 of the U.S. Nuclear Regulatory Commission
(also hereinafter, “Agency”) who had or have been, or are being adversely affected by
Defendant’s pattern or practice of discrimination and/or ongoing discriminatory hiring and
promotion policies that denied or are denying them employment opportunities on the basis
of their race and sex (this identifies the Black male class, including Plaintiff as a member).
From January 19, 1975, to present is the relevant time period of the alleged class
discrimination and involuntary servitude, and November 4, 2005, is the date that it was
conveyed to Plaintiff that his sought-after promotion was denied. During the relevant time
period of discrimination, Plaintiff has been subjected to the discrimination, as alleged, since
Plaintiffs initial hire as a Federal employee on January 27, 2002. Plaintiffs claims of
discrimination were not resolved with Defendant in counseling. As a result, Defendant’s
ongoing discriminatory hiring and promotion policies (or customs having the force of law)
inflicting involuntary servitude on members of the Black male class continued. See
paragraphs 24 through 26 below. The involuntary servitude or service consists in each class
member being compelled by force to involuntarily submit to and comply with the prescribed
course of action by Defendant for the benefit of another, and there have been no reasonable
means of escape and no choice except to remain in the involuntary service. As such, and
without doubt, members of the Black male class, including Plaintiff, are being held in
compelled submission and compliance, and are being deprived of their Thirteenth
Amendment right to be free from involuntary servitude. With respect to the involuntary
servitude, Plaintiff has long believed the following:

Appendix
63a
a) The Thirteenth Amendment provides that “[n] either slavery nor involuntary
servitude, except as a punishment for crime whereof the party shall have been duly
convicted, shall exist within the United States, or any place subject to their
jurisdiction.” Amendment XIII to the United States Constitution.
b) Slavery and involuntary servitude, except as a punishment for crime, are enemies of
the United States of America.
c) The Thirteenth Amendment to the United States Constitution abolished involuntary
servitude. See Plessy v. Ferguson, 163 U.S. 537, 542 (1896). Without doubt, synonyms
of abolish include annul, ban, forbid, invalidate, nullify, prohibit, outlaw, repeal, and
void.
d) The Thirteenth Amendment prohibits for all time ... involuntary servitude, except as
punishment for crime, within the United States. See Civil Rights Cases, 109 U S. 3,
20 (1883); Wicks v. Southern Pacific Co., 231 F. 2d 130 (9th Cir. 1956), cert, denied,
Wicks v. Brotherhood of Maintenance, 351 U.S. 946 (1956).
e) The Thirteenth “Amendment... is undoubtedly self-executing, without any ancillary
legislation, so far as its terms are applicable to any existing state of circumstances.
By its own unaided force and effect, it abolished slavery and established universal
freedom.” See Civil Rights Cases, 109 U.S. 3, 20 (1883); see Plessy v. Ferguson, 163
U.S. 537, 542 (1896) (“Slavery implies involuntary servitude”).
f) The Thirteenth “Amendment became a part of the supreme law of the land, and, as
such, binding upon all the states and all the people as well as upon every branch of
government, federal and state.” See Hodges v. United States, 203 U.S. 1, 26 (1906).
g) The “[Thirteenth Amendment] is ... a prohibition against the ... enforcement of any
law inflicting ... involuntary servitude.” See United States v. Cruikshank, 25 F. Cas.
707, 711 (1 Woods, 308) (C.C.D. La. 1874) (No. 14,897).
h) The Thirteenth “[A]mendment denounces a status or condition, irrespective of the
manner or authority by which it is created.” See Clyatt v. United States, 197 U.S. 207,
216 (1905).

Appendix
64a
i) Involuntary servitude denotes, among others, “the condition of one who is compelled
by force, coercion, or imprisonment, and against his will, to labor for [or to serve]
another, whether he is paid or not.” See Black’s Law Dictionary, 4th Edition, p. 961.
j) A condition of enforced compulsory service of one to another is a form of involuntary
servitude within the meaning of the Thirteenth Amendment. See Hodges v. United
States, 203 U. S. 1 (1906); United States v, Booker, 655 F.2d 562, 564 (4th Cir.1981)
(“The [A]mendment ... [was] intended to eradicate ... all forms of compulsory,
involuntary service”); Corrigan v. Buckley, 271 U.S. 323, 330 (1926).
k) The term “service” is defined as “the being employed to serve another; duty or labor
to be rendered by one person to another, the former being bound to submit his will to
the direction and control of the latter. The act of serving; the labor performed or the
duties required.” Black’s Law Dictionary, 4th Edition, p. 1 533.
l) The Thirteenth Amendment to the United States Constitution nullifies immediately
anything which is contrary to its mandate or directive.
m) Title VII of the Civil Rights Act of 1964, as amended, embodies the principles of the
Thirteenth Amendment. See Abner v. Kansas City Southern Railroad Co., 513 F.3d
154 (5th Cir. 2008).
6. On or about February 3, 2006, Plaintiff filed a formal, ongoing class action complaint
of race and sex discrimination, including a petition for class certification, with the Office of
Small Business and Civil Rights of the U.S. Nuclear Regulatory Commission. Plaintiffs
petition for class certification was denied, on April 28, 2006, by Administrative Judge,
Young B. Kim, of the U.S. Equal Employment Opportunity Commission. In the Judgment
entered, the Administrative Judge remanded the case to the Agency to be processed as an
individual complaint. Plaintiff informed the Agency in writing that an individual complaint
was not filed in the absence of a class action complaint. Nearly six years after Judge Kim’s
decision, an Agency EEO Counselor revealed to Plaintiff that Judge Kim denied class
certification because Plaintiff was not an attorney. Plaintiff did not know the reason why
Judge Earn denied class certification beforehand. Nonetheless, the merits of the allegations
of race and sex discrimination as alleged in the ongoing class action complaint were not
adjudicated by Judge Kim. Plaintiff believed (and still believes) that Judge Kim's decision

Appendix
65a
had the effect of upholding Defendant’s ongoing discriminatory hiring and promotion
policies inflicting involuntary servitude on members of the Black male class.
7. On August 11, 2006, Plaintiff filed an ongoing class action complaint of race and sex
discrimination, including a written motion for class certification, in the United States
District Court for the Northern District of Illinois, Eastern Division. The case (civil no. 06C
4351) was assigned to Judge Charles Kocoras. After unsuccessfully urging Plaintiff on
several occasions to proceed in the case as an individual action rather than as a class action,
Judge Kocoras dismissed the case on January 17, 2007. Judge Kocoras gave no reason as to
why he would not allow Plaintiff to proceed in the case as a class action, nor did Judge
Kocoras inform Plaintiff that the requirements of Fed. R. Civ. P. 23 were not satisfied. Prior
to Judge Kocoras’ dismissal of the case, Plaintiff had informed him on several occasions that
an individual complaint was not filed in the absence of a class action complaint (the
language of the filed class action complaint supported Plaintiffs statements). Nonetheless,
the merits of the allegations of race and sex discrimination as alleged in the ongoing class
action complaint were not adjudicated by Judge Kocoras. Plaintiff believed (and still
believes) that Judge Kocoras’ decision had the effect of upholding Defendant’s ongoing
discriminatory hiring and promotion policies inflicting involuntary servitude on members
of the Black male class.
8.

On March 14, 2007, Plaintiff filed a notice of appeal of Judge Kocoras’ decision in

the District Court. On appeal in the United States Court of Appeals for the Seventh Circuit,
Plaintiff-Appellant presented the following statement of issues: 1) Whether the District
Court abused its discretion in dismissing the case and, if so, 2) Whether the District Court
abused its discretion in denying class certification. Circuit Judges William J. Bauer, Joel M.
Flaum, and Terence T. Evans were initially assigned to Plaintiff-Appellant’s appeal case
(appeal no. 17-1596). On June 8, 2007, the assigned Judges granted only to extent the
Briefing request of the United States’ Motion for Summary Affirmance or To Reset Briefing
Schedule. Brief of Defendant-Appellee was due by July 6, 2007 (completed) and reply brief
of Plaintiff-Appellant was due by July 23, 2007 (completed). Implied from the reading of
Defendant-Appellee’s brief, Defendant-Appellee seemed worried that the Judges assigned

Appendix
66a
would rule against it and rule in favor of Plaintiff-Appellant by permitting class
certification. However, during an estimated time period between June 8 and October 11,
2007, a switcheroo took place. In other words, during that time period Judge William J.
Bauer and Judge Joel M. Flaum were no longer assigned to Plain tiff-Appellant’s appeal case
and were replaced by Judge Richard Posner and Judge Kenneth F. Ripple. As such, Judge
Richard Posner, Judge Kenneth F. Ripple, and Judge Terence T. Evans became the Judges
assigned to Plaintiff-Appellant’s appeal case. On October 11, 2007, the Judges assigned or
panel majority of Judges assigned affirmed the District Court's denial of class certification
and dismissal of the case. On December 4, 2007, Plaintiff-Appellant’s petition for rehearing
was denied. Plaintiff believed (and still believes) that the Judges’ or panel majority of
Judges’ decision had the effect of upholding Defendant-Appellee's ongoing discriminatory
hiring and promotion policies inflicting involuntary servitude on members of the Black male
class.
9.

On December 23, 2008, the United States Congress amended 18 U.S.C. § 1589 to

provide a definition of the term ‘abuse or threatened abuse of law or legal process.’ In 18
U.S.C. § 1589(c)(1), the term ‘abuse or threatened abuse of law or legal process’ means the
use or threatened use of a law or legal process, whether administrative, civil, or criminal, in
any manner or for any purpose for which the law was not designed, in order to exert pressure
on another person to cause that person to take some action or refrain from taking some
action. Thanks to the U.S. Department of Justice for encouraging Congress to amend 18
U.S.C. § 1589.
10. On November 30, 2011, Plaintiff initiated Defendant's EEO counseling on an
ongoing class action complaint of retaliatory discrimination based on opposition. Plaintiff
specifically made clear to the assigned EEO Counselor that “the ongoing class action
complaint of retaliatory discrimination relates back to or grows out of the original filed class
action complaint of race and sex discrimination. The class consists of current and former
Black male employees and applicants for employment (including applicants who would have
applied but for the retaliatory discrimination) at Region 3 of the U.S. Nuclear Regulatory
Commission who had or have been, or are being adversely deprived of employment

Appendix
67a
opportunities on the basis of their race and sex as a consequence of their opposition to
Defendant’s ongoing discriminatory hiring and promotion policies being based on prohibited
race and sex discrimination under Title VII of the Civil Rights Act of 1964, as amended (this
identifies the Black male class, including Plaintiff as a member).” Plaintiffs claims of
discrimination were not resolved with Defendant in counseling. As a result, Defendant’s
ongoing discriminatory hiring and promotion policies inflicting involuntary servitude on
members of the Black male class continued.
11. On December 28, 2011, Plaintiff filed a formal, ongoing class action complaint of
retaliatory discrimination based on opposition, including a petition for class certification,
with the Office of Small Business and Civil Rights of the U. S. Nuclear Regulatory
Commission (“NRC”). Plaintiff explicitly named Ms. Kostantina Dina’ Sotiropoulos in the
class action complaint of which Ms. Kostantina Dina’ Sotiropoulos filed an affidavit against
said complaint. Plaintiffs petition for class certification was denied, on April 27, 2012, by
Administrative Judge, Laurie Wardell, of the U.S. Equal Employment Opportunity
Commission. In the Judgment entered, the Judge remanded the case to the Agency to be
processed as an individual complaint. Plaintiff informed the Agency in writing that an
individual complaint was not filed in the absence of a class- action complaint. After having
completely read Judge Wardell’s Order denying class certification, it became clear to
Plaintiff that Judge Wardell treated Plaintiffs filed class- action complaint of retaliatory
discrimination based on opposition as a class action complaint of race and sex discrimination
for class certification. The NRC form 646 (formal discrimination complaint) that Plaintiff
filed with the class action complaint of retaliatory discrimination based on opposition clearly
showed that only the “reprisal” box was checked as the basis for Plaintiffs class action
complaint. Plaintiffs filed ongoing class action complaint of retaliatory discrimination based
on opposition was not evaluated by Judge Wardell for class certification. Plaintiff believed
(and still believes) that Judge Wardell’s decision had the effect of upholding Defendant's
ongoing discriminatory hiring and promotion policies inflicting involuntary servitude on
members of the Black male class. On June 18, 2012, Plaintiff filed a notice of appeal of Judge
WardeH's denial of class certification.

Appendix
68a
12. On March 9, 2017, Plaintiff initiated Defendant’s EEO counseling on four individual
complaints of discrimination and retaliation. Plaintiff alleged and discussed in detail with
the assigned EEO Counselor the following claims of discrimination and retaliation:
a. Retaliatory Discrimination Based on Opposition under Title VII of the Civil Rights
Act of 1964, as amended. This alleged discrimination occurred on February 3, 2017,
and was related to and arose from Defendant's ongoing pattern or practice of
retaliatory discrimination alleged in the ongoing class action complaint. As a note,
the ongoing class action complaint of retaliatory discrimination was still pending
before the Office of Federal Operations of the Equal Employment Opportunity
Commission.
b. Disability Discrimination under Section 501 of the Rehabilitation Act of 1973, as
amended. This alleged discrimination occurred on February 3, 2017.
c. Retaliatory Disability Discrimination Based on Opposition under Section 501 of the
Rehabilitation Act of 1973, as amended. This alleged discrimination occurred on
February 3, 2017.
d. Race and Sex Discrimination in the Application of the Agency's 10 C.F.R. 10 Process.
This alleged discrimination occurred, on February 3, 2017, and was related to and
arose from Defendant's ongoing discriminatory hiring and promotion policies alleged
in the ongoing class action complaint.
13. The mentioned claims are the same claims of discrimination and retaliation which
are presented to this Court for de novo adjudications, and each will be alleged and discussed
in detail below. The claims of discrimination and retaliation came about, among others, as
a result of Defendant's ongoing discrimination and Ms. Kostantina 'Dina' Sotiropoulos's
discriminatory conduct or behavior which caused Plaintiff to be involuntarily suspended,
involuntarily removed from the Region 3 office, and placed on involuntary leave on February
3, 2017. Ms. Kostantina 'Dina' Sotiropoulos was (and probably still is) the Director of the
Division of Resource and Management Administration (DRMA) at Region 3 of the U.S.
Nuclear Regulatory Commission, located in Lisle, IL 60532. Each of the mentioned claims

Appendix
69a
was alleged in a written formal complaint of discrimination filed, on May 9, 2017, with the
Agency's Office of Small Business and Civil Rights.
14. On November 6, 2017, Ms. Pamela R. Baker, Director of the Office of Small Business
and Civil Rights of the U.S. Nuclear Regulatory Commission, made a decision to dismiss,
without any investigation conducted beforehand, Plaintiff’s alleged claims of discrimination
and retaliation for failure to timely initiate EEO counseling and failure to state a claim.
Plaintiff believed that Ms. Baker's dismissal of Plaintiff's claims resulted from Ms. Baker
having deliberately misconstrued Defendant’s prior discriminatory acts deemed outside the
45-day limitation period as Plaintiffs actual claims. During the EEO counseling process,
Plaintiff and the assigned EEO Counselor discussed in detail discriminatory acts deemed
outside the 45-day limitation period. Plaintiff informed the assigned EEO Counselor that
discriminatory acts deemed outside the 45-day limitation period can still be used as relevant
background evidence to support Plaintiff's timely filed claims of discrimination and
retaliation. Plaintiff believed that he did not fail to timely initiate EEO counseling, and that
his claims of discrimination and retaliation did not fail to state a claim and were timely
filed. Plaintiff also believed (and still believes) that Ms. Baker’s decision of dismissal had
the effect of upholding Defendant's ongoing discriminatory hiring and promotion policies
inflicting involuntary servitude on members of the Black male class. Pursuant to 29 C.F.R.
1614 .402(a), on December 8, 2017, Plaintiff filed a notice of appeal of Ms. Baker’s decision
of dismissal with the Office of Federal Operations of the Equal Employment Opportunity
Commission.
15. On December 4, 2017, five years or more after Plaintiff had filed his notice of appeal
of Judge Wardell’s denial of class certification, for the Commission, Ms. Bernadette B.
Wilson (Acting Executive Officer) Executive Secretariat, affirmed the Agency’s Final Order
implementing the Judge Wardell’s denial of class certification for failure to satisfy the
requirements set forth at 29 C.F.R. § 1614.204(a)(2). After having read the appeal decision,
Plaintiff’s asked himself one question without a factual answer: Was Ms. Bernadette B.
Wilson temporarily promoted from Executive Secretariat to Acting Executive officer for the
purpose of affirming the Agency’s final order implementing Judge Wardell's denial of class

Appendix
70a
certification for failure to satisfy the requirements set forth at 29 C.F.R. § 1614.2 04(a)(2)?
Plaintiff believed that the requirements set forth at 29 C.F.R. § 1614.204(a)(2) were
satisfied. As Plaintiff stated in paragraph 11 above, Plaintiffs filed ongoing class action
complaint of retaliatory discrimination based on opposition was not evaluated by Judge
Wardell for class certification. Plaintiff believed (and still believes) that Ms. Bernadette B.
Wilson's decision had the effect of upholding Defendant's ongoing discriminatory hiring and
promotion policies inflicting involuntary servitude on members of the Black male class.
16. On May 10, 2018, Mr. Carlton M. Hadden, Director, Office of Federal Operations,
made a decision to affirm the Agency's dismissal of Claims 2, 3 and 4 as defined in the
Agency’s Order dated November 6, 2017. Mr. Hadden remanded Claim 1 for further
processing. Claim 1,2,3, and 4 were defined in the Agency's Order as follows:
1. On August 25, 2016, Mr. Doornbos and Ms. Sotiropoulos assigned three additional
work assignments (including updating Region Ill's phone listing and updating,
creating and printing Region Ill's wallet card or phone card) to you, despite your
informing them that the assignments are highly inappropriate work for you and will
likely cause you high stress which will increase your blood sugar, thus negatively
affecting your diabetic condition.
2. On December 5, 2016, Mr. King issued a Counseling Memorandum to you accusing
you of inappropriate conduct and insubordination for initially refusing to perform two
of the three additional work assignments referenced in Claim 1.
3. On February 3, 2017, Ms. Carpenter issued a notification letter dated January 30,
2017, to you stating that your U.S. Nuclear Regulatory Commission Access
Authorization and Employment Clearance was to be suspended, effective
immediately.
4. On February 3, 2017, Mr. Heilig issued a Notice of Proposed Indefinite Suspension
dated February 1, 2017, to you pursuant to the procedures set forth in Title 10 of the
code of Federal Regulations (C.F.R.) Part 10. Criteria and Procedures for
Determining Eligibility for Access to Restricted Data or National Security
Information or an Employment Clearance. Subsequently, on March 16, 2017, Mr.
Pulliam issued a Notice of Decision of Indefinite Suspension dated February 1, 2017,

Appendix
71a
to you yet the individuals you filed a class action case against in 2011 were not
subjected to the Title 10 C.F.R. Part 10 process.
17. Claims 1, 2, 3, and 4 defined in the Agency’s Order dated November 6, 2017, were
not Plaintiffs actual claims of discrimination and retaliation, but were prior acts or
decisions revealed in documents that Plaintiff submitted as relevant background evidence
in support of Plaintiffs timely filed claims of discrimination and retaliation. Plaintiffs
actual claims of discrimination and retaliation were alleged in a written formal complaint
filed May 9, 2017. See the Notice of Right to File a Formal Discrimination Complaint dated
April 24, 2017, and paragraph 24 of Plaintiffs written formal complaint dated May 9, 2017.
Mr. Hadden did not evaluate Plaintiffs actual claims of discrimination and retaliation as
alleged in the written formal complaint filed by Plaintiff on May 9, 2017. Plaintiff beheved
(and still believes) that Mr. Hadden’s decision had the effect of upholding Defendant's
ongoing discriminatory hiring and promotion policies inflicting involuntary servitude on
members of the Black male class.
18. On May 18, 2018, Mr. Daniel H. Dorman, Acting Deputy Executive Director for
Materials, Waste, Research , State, Tribal, Compliance, Administration, and Human
Capital Programs, Office of the Executive Director for Operations, U.S. Nuclear Regulatory
Commission, made a decision not to restore Plaintiffs security clearance because Plaintiff
did not resolve the Agency's security concerns raised under Guideline I (Psychological
Conditions). In order for Plaintiff to have resolved the Agency’s security concerns, Plaintiff
must have received treatment, medical or otherwise, to help Plaintiff to disbelieve that the
statutory and constitutional civil rights have been violated as alleged. During the 10 C.F.
R. 10 process, including the administrative hearing held July 13, 2017, and the
administrative appeal decided on April 4, 2018, it was apparent to Plaintiff that the Agency
not only wanted Plaintiff to believe and say that there were no violations of the statutory
and constitutional civil rights alleged (under Title VII of the Civil Rights Act of 1964,
amended, and Thirteenth Amendment to United States Constitution), but also wanted
Plaintiff to believe and say that no person or employee was responsible for said violations,
otherwise the 10 C.F. R. 10 process continued based on the information received. Plaintiff
believes that such Agency’s action has been an abuse of the 10 C.F.R. 10 process. How could

Appendix
72a
the Agency get away with such action? Because the Agency knew (and knows) that under
Department of the Navy v. Egan, 484 U.S. 518 (1988) and Title VII of the Civil Rights Act of
1964, amended, courts are not permitted to review Agency’s decision regarding national
security. Nonetheless, Mr. Daniel H. Dorman’s decision resulted in continuous deprivation
of Plaintiffs constitutional right to be free from involuntary servitude under the Thirteenth
Amendment to United States Constitution as indicated in paragraph 5 above and
paragraphs 24 through 26 below. Deprivation of said constitutional right is contrary to said
Thirteenth Amendment.
19. On June 15, 2018, Mr. Timothy I. Pulliam, Director, Division of Facilities and
Security, Office of Administration, U. S. Nuclear Regulatory Commission, made a decision,
based on Mr. Daniel H. Dorman’s decision, to remove Plaintiff from the position of IT
Specialist GG-2210-12, and from Federal service (effective July 5, 2018, by COB). Mr.
Timothy I. Pulliam’s decision resulted in continuous deprivation of Plaintiffs constitutional
right to be free from involuntary servitude under the Thirteenth Amendment to United
States Constitution as indicated in paragraph 5 above and paragraphs 24 through 26 below.
Deprivation of said constitutional right is contrary to said Thirteenth Amendment.
20. As used herein, the term Defendant refers to a combination of persons united (or
joined) as one in their official and individual capacity. Each member becomes or acts as the
agent of every other member. “[T]he agreement was a tacit understanding, created by a long
course of conduct and executed in the same way. Not the form or manner in which the
understanding is made, but the fact of its existence and the further one of making it effective
by overt conduct are the crucial matters.” Direct Sales Co. v. United States, 319 U. S. 703,
714 (1943) (emphasizing “prolonged cooperation”). The act of one partner may be the act of
all.
First Cause of Action
Ongoing Pattern or Practice of Retaliatory Discrimination Based on Opposition Under Title
VII of the Civil of 1964, as amended
A pattern or practice of resistance to Title VII
21. Plaintiff incorporates and realleges by reference the foregoing paragraphs 5 through
8, as if they were fully set forth herein. Pursuant to Fed. R. Civ. P. 15(c)(l)(8), this amended

Appendix
73a
class claim of an ongoing pattern or practice of retaliatory discrimination based on
opposition relates back to the filing date of the original class action complaint of race and
sex discrimination (civil no. 06C 4351), which was filed on August 11, 2006, in the United
States District Court for the Northern District of Illinois, Eastern Division, and was timely
filed within the 90-day statute of limitations period for filing the complaint.
22. Plaintiff believes that he has been a victim as other Black males of retaliatory
discrimination by Region 3 of the U.S. Nuclear Regulatory Commission (“Defendant”). In
that, Plaintiff reasonably believes that he has been adversely deprived of employment
opportunities on the basis of his race and sex (as other Black males have been) as a
consequence of Plaintiff’s opposition to Defendant’s ongoing discriminatory hiring and
\

promotion policies being based on prohibited race and sex discrimination under Title VII of
the Civil Rights Act of 1964, as amended, as demonstrated in the ongoing class action
complaint of race and sex discrimination (“filed class action complaint”) (civil no. 06C 4351).
23. The filed class action complaint served as informing Defendant that Plaintiff
believes that Defendant was engaging in prohibited race and sex discrimination under Title
VII of the Civil Rights Act of 1964, as amended. Plaintiffs “opposition” is based on a
reasonable and good-faith belief that Defendant has engaged and continued to engage in
prohibited race and sex discrimination under Title VII of the Civil Rights Act of 1964, as
amended. Plaintiff believes that Defendant has acted and continued to act purposefully and
with reckless disregard or indifference to the “injury” Defendant is made aware. See
updated status in paragraph 26 below for results of this alleged ongoing pattern or practice
of retaliatory discrimination.
Background of the Filed Class Action Complaint
24. As indicated in the filed class action complaint, from January 19, 1975, to present
is the relevant time period of the alleged race and sex discrimination. January 19, 1975, is
the date that the United States Nuclear Regulatory Commission was opened for business,
and November 4, 2005, is the date that it was conveyed to Plaintiff that his sought-after
promotion was denied. During the relevant time period of discrimination, Plaintiff has been

Appendix
74a
subjected to the discrimination, as alleged, since Plaintiff’s initial hire as a Federal
employee on or about January 2, 2002.
25. It is clear that paragraphs 1 and 1(a) of the filed class action complaint show, among
others, Defendant’s direction or course of action or interest opposite to Plaintiff’s direction
or course of action or interest. Paragraphs 1 and 1(a) also show the imposition of Defendant's
will against the will of Plaintiff. The gist of the filed class action complaint is as follows:
irkirk

Allegations of Race and Sex Discrimination
A pattern or practice of resistance to Title VII
1.

Prior to 11/4/2005, Defendant had been following hiring and promotion policies and
an integrated practice of discrimination of disproportionately and purposefully
excluding all, or substantially all, Black males, including myself, from
Administrative, Professional, Supervisory, or Management positions on the basis of
our race and sex at Region 3.
a. Except for the discrimination, being hired or promoted would have provided an
employment opportunity, among others , to receive training or experience to
qualify for, to be hired in, or to be promoted to a higher position, or to advance
promotionally within occupied position, or to receive an unbiased performance
appraisal of the performance of duties in occupied position, within any Division
of Region 3, including
the Division of Resource and Management Administration.

2.

Such ongoing and longstanding discriminatory policies were unrelated to measuring
job, or subsequent job, capability; whereas the effect was depriving me, as other
Black males, of employment opportunities, and was causing me mental anguish.

3.

Such ongoing and longstanding discriminatory hiring and promotion policies (or
customs having the force of law) inflicting involuntary servitude on members of the
Black male class were violating (and continue to date to violate) the first section of
the Thirteenth Amendment to the United States Constitution. As stated in
paragraph 5 above, “the involuntary servitude or service consists in each class

Appendix
75a
member being compelled by force to involuntarily submit to and comply with the
prescribed course of action by Defendant for the benefit of another, and there have
been no reasonable means of escape and no choice except to remain in the
involuntary service.”
4.

As of 11/4/2005, Defendant had an estimated 205 employees of Region 3. Of these, 4
were Black males and approximately 100 were white males. Calculated roughly, 2
Black males (although considered professionals) were in Administrative positions;
2 Black males were in Professional positions; and no Black males were in
Supervisory or Management positions (100% excluded).

5.

As a result of Defendant’s ongoing discriminatory policies that resulted in the
rejection of a disproportionately greater percentage of Black males, I have been
deprived of promotional and other employment opportunities, and my performance­
rating status as an employee has been adversely affected.

6.

As a further result of Defendant’s ongoing discriminatory policies that resulted in
the rejection of a disproportionately greater percentage of Black males, my
downgraded performance rating, in my 2005 performance appraisal, contributed to
the disparity in treatment of Black males in being selected to receive and presented
with a performance award on an equal basis as white males.
a. No Black male was selected to receive and presented with a performance award
during the 12/5-6/2005 Divisional and Regional award presentations.
b. As I have indicated already, another Black male also was given a downgraded
performance rating in his 2005 performance appraisal. Although he submitted
a grievance to dispute the performance rating, such grievance was
subsequently and unfortunately withdrawn.

7.

Absence of a statistical showing of such, the ongoing discriminatory policies of
Defendant have resulted in a disparate impact on Black males than on white males,
since a disproportionately greater percentage of Black males were excluded from
any of the positions mentioned in paragraph 1 than were white males; and, in

Appendix
76a
addition, such ongoing discriminatory policies have resulted in a disparate
treatment which involved the refusal to hire and promote Black males on an equal
basis with white males.
a. With respect to the disparate treatment, the refusal to hire and promote
conformed to the pattern or practice of discrimination against Black males as
shown in paragraph 1.
****

26. As an updated status relating to paragraph 4 of the abovementioned filed class
action complaint:
As of October 31, 2011, Defendant had an estimated 220 employees of Region 3. Of these,
6 were Black males and approximately 100 were white males. Calculated roughly, 2
Black males (although considered professionals) were in Administrative positions within
DRMA; 3 Black males were in Professional positions within DRS, and no Black males
were in Professional positions within DRP or DNMS (100% still excluded); 1 Black male
was in a Supervisory position within DRS, and no Black males were in Supervisory
positions within DRP, DNMS, or DRMA (100% still excluded); and no Black males were
in upper Management positions (100% still excluded). Note: Allegations relating to
paragraphs 1 through 6 of the filed class action complaint should not be construed as
excluding ORA (within ORA 100% of Black males were still excluded as other divisions
of Region 3).
As of February 3, 2017, Defendant had an estimated 200 employees of Region 3. Of these,
8 were Black males and approximately 100 were white males. Calculated roughly, 1
Black male (although considered a professional) was in an Administrative position
within DRMA; 4 Black males were in Professional positions within DRS; 1 Black male
was in a Professional position within DRP; no Black males were in Professional positions
within DNMS (100% still excluded); no Black males were in Professional positions within
ORA (100% still excluded); no Black males were in Supervisory positions within DRS
(100% excluded); 1 Black male was in a Supervisory position within DRP; no Black males
were in Supervisory positions within DNMS (100% still excluded); no Black males were

Appendix
77a
in Supervisory positions within DRMA (100% still excluded); no Black males were in
Supervisory positions within ORA (100% still excluded); and 1 Black male was in an
upper Management position within ORA.
As of July 2, 2018, Defendant had an estimated 200 employees of Region 3. Of these, 7
were Black males and approximately 100 were white males. Calculated roughly, 1 Black
male (although considered a professional) was in an Administrative position within
DRMA; 3 Black males were in Professional positions within DRS; 1 Black male was in a
Professional position within DRP; no Black males were in Professional positions within
DNMS (100% still excluded); no Black males were in Professional positions within ORA
(100% still excluded); no Black males were in Supervisory positions within DRS (100%
excluded); 1 Black male was in a Supervisory position within DRP; no Black males were
in Supervisory positions within DNMS (100% still excluded); no Black males were in
Supervisory positions within DRMA (100% still excluded); no Black males were in
Supervisory positions within ORA (100% still excluded); and 1 Black male was in an
upper Management position within ORA.
Abbreviations used: DRS, Division of Reactor Safety; DRP, Division of Reactor Projects;
DNMS, Division of Nuclear Material and Safety; DRMA, Division of Resource
Management and Administration; ORA, Office of the Regional Administrator.
27. In relation to Defendant’s conduct described in the filed class action complaint, the
“[environment illuminates the meaning of acts, as context does that of words. What a man
is up to may be clear from considering his bare acts by themselves; often it is made clear
when we know the reciprocity and sequence of his acts with those of others, the interchange
between him and another, the give and take of the situation.” Cramer v. U.S., 325 U S. 1,
33 (1945). Indeed, “past wrongs are evidence bearing on whether there is a real and
immediate threat of repeated injury.” O'Shea v. Littleton, 414 U.S. 488, 496 (1974).
Likewise, and without doubt, the Black male class members, including Plaintiff, possess
and share a common interest in equal employment opportunities without discrimination on
the basis of our race and sex, and suffer the same “injury” in deprivation of employment
opportunities on the basis of our race and sex. “[A] primary objective of Title VII is

Appendix
78a
prophylactic: to achieve equal employment opportunity and to remove the barriers that have
operated to favor white male employees over other employees.” Teamsters v. United States,
431 U.S. 324, 364(1977).
28. Relevant to Defendant’s adverse action alleged in the retaliatory discrimination, it
is clear from the language of the filed class action complaint, including its updated status,
that members of the Black male class, including Plaintiff, are continually being restrained.
Restrain is defined as meaning “to keep in check; to hold back from acting, proceeding, or
advancing, either by physical or moral force, or by any interposing obstacle; to repress or
suppress; to curb.” (Webster’s New International Dictionary 2d Ed. unabridged, 1958). As
stated in Webster’s Second New Riverside University Dictionary (1984), restrain is defined
as “1. To control: check. 2. To take away freedom or liberty of [without any doubt this is the
same as being against the self-executing 13th Amendment and Its enforcement statutes].
3. To restrict or limit.”
29. To sum up and to repeat, Plaintiff has indicated in the filed class action complaint
that Defendant has been carrying out part of its operations with a middle finger thrown up
at Title VII of the Civil Rights Act of 1964, as amended, section 1 of the Thirteenth
Amendment to the United States Constitution and other laws.
Class Certification
30. Plaintiff, as Agent of the class and Private Attorney General, seeks class
certification of this action pursuant to Fed. R. Civ. P. 23(a), (b)(2) and/or (b)(3). The class
consists of current and former Black male employees and applicants for employment
(including applicants who would have applied but for the retaliatory discrimination) at
Region 3 of the U.S. Nuclear Regulatory Commission who had or have been, or are being
adversely deprived of employment opportunities on the basis of their race and sex as a
consequence of their opposition to Defendant's ongoing discriminatory hiring and promotion
policies being based on prohibited race and sex discrimination under Title VII of the Civil
Rights Act of 1964, as amended.
31. The class that Plaintiff, as a class member, seeks to certify satisfies the numerosity,
commonality, typicality, and adequacy of representation prerequisites for class certification

Appendix
79a
under Fed. R. Civ. P. 23(a).
32. Numerositv. Fed. R. Civ, P. 23(a)(1): The members of the class identified in
paragraph 30 above are so numerous that joinder of all members is impracticable. Given
the fact that Defendant has sought and continued to seek employment of individuals from
the general population for its Region 3 office, and the fact that the class consists of current
and former Black male employees and applicants (including outside applicants), it is
difficult to determine the exact number of Black males who had or have been, or are being
adversely deprived of employment opportunities on the basis of their race and sex as a
consequence of their opposition to Defendant's ongoing discriminatory hiring and promotion
policies being based on prohibited race and sex discrimination under Title VII of the Civil
Rights Act of 1964, as amended. Even a good-faith approximation of the number could not
be attempted. In other words, “the number of those interested in the litigation is so great as
to make difficult or impossible the joinder of all because some are not within the jurisdiction
or because their whereabouts is unknown or where if all were made parties to the suit its
continued abatement by the death of some would prevent or unduly delay a decree.”
Plaintiffs class satisfies the numerosity requirement.
33. Commonality Fed. R. Civ. P. 23(aX2): This legal action poses numerous questions of
law and fact that are common to and affect the rights of all members of the class. The
answers to these questions wifi be determined on the basis of common evidence that is
applicable to each class member. This includes, if necessary, the utilization of statistical
evidence as proof of Defendant's pattern or practice of retaliatory discrimination based on
opposition to Defendant's ongoing discriminatory hiring and promotion policies being based
on prohibited race and sex discrimination under Title VII of the Civil Rights Act of 1964, as
amended. This also includes expert testimony, as well as testimonies from class members
that may serve as anecdotal evidence about specific instances that also illustrate the
persistent pattern or practice of retaliatory discrimination.
Specific examples of factual and legal commonality include, but are not limited to:
a.

Common Questions of Fact and Law. Claims of Plaintiff and each class member

implicate common factual questions including (without limitations) the following:

Appendix
80a
1.

Whether Black males, including Plaintiff, as a class have been and continued

to be adversely deprived of employment opportunities on the basis of their race and
sex as a consequence of their opposition to Defendant's ongoing discriminatory hiring
and promotion policies being based on prohibited race and sex discrimination under
Title VII of the Civil Rights Act of 1964, as amended;
2.

Whether Defendant's ongoing discriminatory hiring and promotion policies

being based on prohibited race and sex discrimination under Title VII of the Civil
Rights Act of 1964, as amended, have deterred and continued to deter Black males,
including Plaintiff, as a class from opposing such ongoing discriminatory hiring and
promotion policies, and from exercising their right of equal employment opportunities
without discrimination on the basis of their race and sex; and
3.

Whether Defendant has subjected and continued to subject Black males,

including Plaintiff, as a class to the retaliatory discrimination in violation of Title VII
of the Civil Rights Act of 1964, as amended, at its Region 3 office.
b.

The presence of central questions of fact and law that are common to Plaintiff and

to each class member satisfies the commonality requirement.
34. Typicality. Fed. R. Civ. P. 23(a)(3): Plaintiff's claims are typical of the claims of the
class members as a whole. Plaintiff possesses the same interest and suffers the same injury
as the class members. Plaintiff and class members possess and share a common interest in
equal employment opportunities without discrimination on the basis of our race and sex,
and suffer the same injury in deprivation of employment opportunities on the basis of our
race and sex as a consequence of our opposition to Defendant's ongoing discriminatory hiring
and promotion policies being based on prohibited race and sex discrimination under Title
VII of the Civil Rights Act of 1964, as amended. The claims of Plaintiff and the class arise
out of common facts and similar legal and remedial theory or theories. The relief Plaintiff
seeks will benefit the class. Plaintiff and class members also share a common interest in
assuring that Defendant ends its unlawful retaliatory discrimination against Black males
at its Region 3 office. This shared interest in remedying a shared injury through similar
legal and remedial theory or theories satisfies the typicality requirement.

Appendix
81a
35. Adequacy of Representation. Fed. R. Civ. P. 23(a)(4): Plaintiff, as Agent of the class
and Private Attorney General, or, if represented, the representative, will fairly and
adequately protect the interests of the class. Plaintiffs interest and injury are coextensive
with those of the class. Plaintiff seeks to end and remedy Defendant's pattern or practice of
retaliatory discrimination under Title VII of the Civil Rights Act of 1964, as amended, so
that the class will no longer suffer the retaliatory discrimination. Plaintiff is able and willing
to represent the class fairly and vigorously as Plaintiff pursues this common goal through
this action, and hereby states that there are no conflicts of interest between Plaintiff and
the class. The coextensive interest and injury of Plaintiff with class members, along with
the interest, resources of their class counsel, if an attorney is retained and designated as
class counsel, to litigate competently this class action of retaliatory discrimination based on
opposition at issue here, satisfy the adequacy requirement.
36. Fed. R. Civ. P. 23(b)(2): Defendant has acted or refused to act in a manner generally
applicable to the class. As indicated in paragraphs 22 through 26 above, and without
limitations, Defendant has maintained a pattern or practice of retaliatory discrimination
based on opposition and ongoing discriminatory policies of treating Black males, including
Plaintiff, less favorably than white males. Defendant's pattern or practice and ongoing
discriminatory policies have resulted in a hierarchy dominated exclusively by white males
with little or no employment opportunity for Black males, including Plaintiff. Defendant’s
system of decision-making has resulted in a disparate treatment of, and has resulted in a
disparate impact on, the Black male class including Plaintiff as a whole. These continuing
pattern or practice and ongoing discriminatory policies are common to and typical of the
claims of class members and Plaintiff and satisfy Fed. R. Civ. P. 23(b)(2)’s requirement that
Defendant has acted in a manner generally applicable to the class.
37. Fed. R. Civ. P. 23fb)(2): The Appropriateness of Injunctive and Declaratory Relief to
the Class. Plaintiff seeks declaratory relief that Defendant's pattern or practice and ongoing
discriminatory policies, as alleged, violate federal law; and injunctive relief designed to end
and remedy the effect of the Defendant’s pattern or practice and ongoing discriminatory
policies. Such relief by its nature is applicable to the class as a whole and satisfies Fed. R.

Appendix
82a
Civ. P. 23(b)(2)’s requirement that injunctive and declaratory relief be appropriate.
38. Fed. R. Civ. P. 23(b)(3): Predominance and Superiority. Class certification is also
appropriate pursuant to Fed. R. Civ. P. 23(b)(3) in this case because, as set forth in more
detail in paragraphs above, common questions predominate over those affecting class
members individually, and a class action is superior to other available methods of resolving
this controversy. The alternative to class treatment is certainly numerous individual suits.
Such a multiplicity of actions would defeat the economies of scale inherent in the class action
procedure and result in substantial waste of judicial resources. Thus, from the viewpoint of ,
public policy, transactional costs and judicial economy, multiple litigations would be
manifestly inferior to a class action, thereby satisfying Fed. R. Civ. P. 23(b)(3).
Second Cause of Action
Disability Discrimination under 501 of the Rehabilitation Act of 1973, as
amended
39. Plaintiff had been employed at Region 3 of the Nuclear Regulatory Commission
(“NRC”), located in Lisle, IL 60532, for 16 years in the IT Specialist (Applications
Software/Data Management) position without a disability accommodation. Plaintiff also
worked in the IT Specialist (Applications Software/Data Management) position for
approximately 14 years and 6 months without the requirement for Plaintiff to involuntarily
perform two additional work assignments being listed in the position description (PD)
document. During the month of August 2016, Ms. Kostantina 'Dina' Sotiropoulos, Director
of Resource Management and Administration (DRMA), assigned two additional work
assignments to Plaintiff. The two additional work assignments were in addition to an
assignment already excepted by Plaintiff.
40. The two additional work assignments entailed updating the Region Ill Phone List
and updating, creating, printing the Region Ill Wallet Card (or Phone Card). The Region Ill
Phone List and Region Ill Wallet Card (or Phone Card) were "data entry input applications"
and required no expert or specialized skills of the underlying database(s), and in order to
keep the Phone List and Wallet Card data updated, one must constantly monitor Region Ill
staff members moving from location to location and changes to their home, cell, and office
phone numbers.

Appendix
83a
41. As the application programmer, the database administrator, and given the need for
Plaintiff to learn Hyper Text Markup Language (HTML), JavaScript, jQuery, Document
Object Model (DOM), and Drupal due to his excepted Web design work assignment, Plaintiff
repeatedly communicated to Ms. Kostantina “Dina” Sotiropoulos during the period of
August 2016 to December 2016 that performing the two additional work assignments
(Phone List and Wallet or Phone Card) would be too much for Plaintiff to focus on and would
cause Plaintiff high stress and thus increased blood sugar. In conjunction with his primary
duties, Plaintiff was the only staff member singled out to be assigned three different work
assignments by Ms. Kostantina ‘Dina’ Sotiropoulos. Plaintiff believes that Ms. Kostantina
‘Dina’ Sotiropoulos intended to cause Plaintiff hardship and harm regardless of having
repeatedly informed her about his diabetes condition.
42. To establish that Plaintiff has a disability within the meaning of the Rehabilitation
Act of 1973, as amended, Plaintiff alleges that he has diabetes which substantially limits
the major life activity of endocrine function, and that he has a history of diabetes.
43. Plaintiff is qualified, without an accommodation, to perform the essential
(fundamental) functions of the IT Specialist (Applications Software/Data Management)
position.
44. As a qualified employee with a disability and as a result of his involuntary
suspension, involuntary removal from the Region Ill office, and placement on involuntary
leave, Plaintiff believes that he has been adversely deprived of the ability to perform the
essential (fundamental) functions of the IT Specialist (Applications Software/Data
Management) position on the basis of his disability. Also, because Plaintiff informed Ms.
Kostantina ‘Dina’ Sotiropoulos of his diabetes condition, Plaintiff is "regarded as" disabled.
45. Plaintiff believes that Ms. Kostantina 'Dina' Sotiropoulos has acted with ‘reckless or
deliberate indifference’ to his federally protected right(s) under the Rehabilitation Act of
1973, as amended, and his medical condition of being a diabetic. Being a diabetic increases
Plaintiffs risk for many serious health problems. Besides nerve damage, gangrene and
infection, other complications include leg(s) amputation, heart disease, stroke, blindness in
the eyes and kidney failure, etc.

Appendix
84a
46. Diabetes qualifies as a serious condition if it requires one to go to the doctor at least
twice

a

year.

See

http://www.

diabetes.org/living-with-diabetes/know-your-rights/

discrimination/employment-discrimination/medical-leave .html. Plaintiff has gone (and
Plaintiff still do go) to his medical doctor at least three to six times a year.
47. Given that Ms. Kostantina ‘Dina’ Sotiropoulos stated during the informal EEO
complaint process that the Personnel Security Branch (Tim I. Pulliam) (also hereinafter,
“PSB”) and/or Office of Administration (Cynthia Carpenter) (also hereinafter, “ADM”) of the
NRC made the decision regarding Plaintiff's employment with Region Ill of the NRC, and
that she only provided information to PSB and/or ADM, Plaintiff believes that his claim of
disability discrimination should be evaluated under the so-called cat’s paw theory of liability
for discrimination.
48. Under the cat’s paw theory of liability, “a biased subordinate who lacks decision­
making power uses the formal decision-maker as a dupe in a deliberate scheme to trigger a
discriminatory employment action.” under the cat’s paw theory, the biased subordinate or
supervisor, not the nominal decisionmaker, is the driving force behind the adverse
employment action. A Supreme Court opinion, Staub v. Proctor Hospital, 562 US 411 (2011),
made the cat’s paw theory slightly more employee-friendly. “Cat’s paw” claims exist where
a plaintiff seeks to hold the employer liable for the intentional discrimination of an
employee, usually a supervisor, who did not make- but influenced-the ultimate employment
decision in question.
Under the Staub rule, the employer will be held liable if three conditions are met:
a)

a non-decision-maker, who is the employee’s supervisor, is motivated by
discriminatory (or retaliatory) intent;

b)

the biased non-decision-maker performs an act intended to cause the employee
to suffer an adverse employment action (such as termination, etc.); and

c)

the biased non-decision-maker’s act is a proximate (foreseeable) cause of the
adverse action.

Under the Staub rule, as long as the biased supervisor’s input is a factor (but not

Appendix
85a
necessarily the sole factor) in the decision, the employer can still end up being liable.
49. Plaintiff has no doubt that the false and misleading information provided by biased
Ms. Kostantina ‘Dina’ Sotiropoulos, along with the aid of Ms. Mary Walsh, Deputy Director
of DRMA, and Mr. Jared Heck, Regional Attorney, influenced and was a factor in the
decision made by PSB and/or ADM. See Notification Letter dated January 30, 2017, and
Plaintiffs Response to such letter on March 30, 2017. Plaintiff believes that when providing
the false and misleading information, biased Ms. Kostantina ‘Dina’ Sotiropoulos was
motivated by hostility to Plaintiff's disability (his diabetes condition), and biased Ms.
Kostantina ‘Dina’ Sotiropoulos was motivated also by retaliation for Plaintiffs opposition to
prohibited disability discrimination. There was no independent investigation conducted,
apart from biased Ms. Kostantina ‘Dina’ Sotiropoulos’ input, prior to the decision to take an
adverse employment action against Plaintiff on February 3, 2017.
50. Direct evidence of Ms. Kostantina ‘Dina’ Sotiropoulos’ discriminatory intent
includes statements made on Ms. Kostantina ‘Dina’ Sotiropoulos' behalf during an October
27, 2016 meeting, and such statements demonstrated the foreseeable course of events set in
motion by Ms. Kostantina ‘Dina’ Sotiropoulos. See e-mail dated November 1, 2016, that was
sent by Plaintiff to Ms. Kostantina ‘Dina’ Sotiropoulos. In said e-mail, Plaintiff stated the
following:
“Dina,
During a meeting held on 10/27/2016, I was informed [by Michael LaFranzo] of your
intention to make or require me perform the two-additional work assignment. Also, I
was warned in an angry tone of voice that if I didn't perform the two- additional work
assignment the following will happen:
•

I will be subjected to psychological evaluations. (Completed).

•

I will have my security clearance taken away. (Completed).

•

I will lose my current Job (loss of income as well no doubt). (Completed with
respect to loss of income); (Mr. Timothy Pulliam placed Plaintiff on LWOP
effected March 31, 2017); (Mr. Timothy Pulliam set July 5, 2018 by COB for

Appendix
86a
Plaintiff to be removed from the position of IT Specialist, GG-2210-12, and from
Federal service).
• And if I think that I'm sick now, just wait until I lose my job from the Government
I'll really, really be sick.
Dina, I believe that I have been right to fear that certain persons with knowledge of my
health issue will use such knowledge to harm me."
Mr. Michael LaFranzo, Ms. Desiree Smith, and Plaintiff were the only persons in attendance
at the October 27, 2016 meeting when the above statements were made. The only reason
that the October 27, 2016 meeting took place was for Plaintiff to be informed of Ms.
Kostantina ‘Dina’ Sotiropoulos’ intention as to what Ms. Kostantina ‘Dina’ Sotiropoulos
planned to do given that Plaintiff was unwilling to performed the two additional assignment
due to his health issue (his diabetes condition). As documented in the email dated November
1, 2016, Plaintiff was indeed informed of Ms. Kostantina ‘Dina’ Sotiropoulos’ intention.
51. This alleged disability discrimination occurred on February 3, 2017.
Third Cause of Action
Retaliatory Disability Discrimination
Based on Opposition under Section 501 of
the Rehabilitation Act of 1973, as amended
52. Plaintiff incorporates and realleges by reference the foregoing paragraphs 48
through 50, as if they were fully set forth herein.
53. Plaintiff reasonably believes that he has been adversely deprived of the ability to
perform the essential (fundamental) functions of the IT Specialist (Applications
Software/Data Management) position on the basis of his disability as a consequence of his
opposition to prohibited disability discrimination.
54. Given that Ms. Kostantina ‘Dina’ Sotiropoulos stated during the informal EEO
complaint process the Personnel Security Branch (Tim I. Pulliam) (“PSB”) and/or Office of
Administration (Cynthia Carpenter) (“ADM”) of the NRC made the decision regarding my
employment with Region Ill of the NRC, and that she only provided information to PSB
and/or ADM, Plaintiff beheves that his retaliatory disability discrimination claim should be

Appendix
87a
evaluated under the so-called cat’s paw theory of liability for discrimination as indicated in
paragraphs 48 through 50.
55. This alleged retaliatory discrimination occurred on February 3, 2017.
56. Note: All documents are submitted as relevant background evidence in support of
my timely claims of disability discrimination and retaliation.
Fourth Cause of Action
Race and Sex Discrimination in the Application of NRC 10 C.F.R. 10 Process
under Title VII of the Civil Rights Act of 1964, as amended
57. Plaintiff believes that the application of the NRC 10 C.F.R. 10 Process has been
discriminatory on the basis of race and sex. Such process applied in a racially and sexually
discriminatory manner singled Plaintiff out for suspension of his security and employment
clearance and questioned his eligibility to maintain such clearance while others (majority
of white males/females), whom Plaintiff has alleged in an ongoing class action complaint of
race and sex discrimination, filed in federal court on August 11, 2006, as having violated
both civil rights and criminal civil rights laws in their official and individual capacity, were
not subjected to suspension and questionable eligibility of their security and employment
clearances. The others' unlawful action has been and continues to be much more serious
than what has been claimed that Plaintiff is or did.
58. See 10 C.F.R. 10.11(a)(4) and (a)(9). In the Adjudicative Guidelines for Determining
Eligibility for Access to Classified Information (2005), see 3 and 4(c)(4) of Guideline A:
Allegiance to the United States; 30 and 31(a) and (c) of Guideline J: Criminal Conduct.
59. Timothy Pulliam and/or Cynthia Carpenter initiated the NRC 10 C.F.R. 10 Process.
Plaintiff believes that PSB and/or ADM was/were aware of the ongoing class- action
complaints based on the reasoning as follows: 1) During his evaluation of Plaintiff on
November 2, 2016, Dr. Rodney Burbach questioned Plaintiff as to why did Plaintiff file the
class action complaints; 2) the class action complaints were fisted in a document that Dr.
Burbach was reading from during the evaluation; and 3) the document, in Plaintiffs belief,
had been transmitted or given to Dr. Burbach by PSB and/or ADM.
60. This alleged race and sex discrimination in the application of NRC 10 C.F.R. 10

Appendix
88a
Process occurred on February 3, 2017.
Jury Demand
61. A trial by jury is hereby demanded in this action for all issues triable by right.
Prayer for Relief
62. Wherefore, Plaintiff on own behalf and on behalf of the class members and on behalf
of the general public whom he seeks to represent requests the following relief:
63. Appointment of class counsel pursuant to Fed. R. Civ. P. 23(g).
64. Certification of the case as a class action pursuant to Fed. R. Civ. P. 23(a), (b)(2)
and/or (b)(3) on behalf of the Plaintiffs class and designation of Plaintiff as representative
of the class and, if counsel is appointed or retained, their counsel of record as class counsel.
65. A declaratory judgment that Defendant’s ongoing pattern or practice and ongoing
discriminatory policies against the class and Plaintiff are unlawful and in violations of Title
VII of the Civil Rights Act of 1964, as amended, the first section of the Thirteenth
Amendment to the United States Constitution and other laws.
66. Expungement order expunging all recordation pertaining to information placed in
Plaintiffs personnel file on or about January 30, 2017, regarding questions concerning
Plaintiffs security and employment clearance. The expungement order should include
expunging all information and documents relating to the 10 CFR 10 process against
Plaintiff, the Counseling Memorandum dated December 6, 2016, and others as appropriate.
67. Removal of annual performance appraisals placed in Plaintiffs personnel file since
the fifing of the original class action complaint. The removal of annual performance
appraisals includes appraisals for years 2017, 2016, 2015, 2014, 2013, 2012, 2011, 2010,
2009, 2008, 2007, 2006, and 2005.
68. Removal of Kostantina ‘Dina’ Sotiropoulos, Director of DRMA, along with others to
be named, from leadership positions to other positions for their participation or involvement
in maintaining, among others, an unsafe and hostile work environment toward the class
members, including Plaintiff, at the Region 3 office.

Appendix
89a
69. An award of back pay; interest on back pay; front pay; hiring and/or promotion of
the class members, including Plaintiff; damages for lost compensation and job benefits,
including health and fringe benefits, that the class members, including Plaintiff, would have
received but for Defendant’s ongoing pattern or practice of retaliatory discrimination based
on opposition. Compensatory damages for pain and suffering, mental and emotional
distress, humiliation, injury to reputation, and injury to credit. Restoration of Plaintiff’s
security clearance, reinstatement of Plaintiff in the IT Specialist (Applications
Software/Data Management) position without loss of time in service, and reinstatement of
Plaintiff in the same office #A3007. Such other and further relief as appropriate.
70. An order enjoining Defendant from engaging in each of the proven ongoing
discriminatory practices/policies against Plaintiff and the class, and requiring Defendant to
institute and carry out policies, practices and programs for its Region 3 office that remedy
the effect of past and present unlawful employment practices. An order prohibiting
Defendant and its Region 3 office from retaliating, in any form, against Plaintiff and class
members. An order requiring Defendant to offer Plaintiff and class members jobs or
positions at its headquarters or other regional offices, if Defendant closes its Reg ion 3 office
or combines its Region 3 office with headquarters or any other regional office.
71. If an attorney is appointed or retained, a reasonable attorney and expert witness
fees and costs and expenses of suit.
Plaintiff, Class Agent and
Private Attorney General,
s/ Daniel L. Miles
United States Nuclear Regulatory Commission, Region 3
2443 Warrenville Road
Lisle, IL 60532
Home Address:
17 North Taft Ave. Hillside, IL 60162
Home Phone: 708-449-0379
Cell Phone: 708-466-8942
Email: dlmiles@comcast.net
Date: October 1. 2018

